<html>
<title> - NOMINATION OF JOHN W. MAGAW TO BE UNDER SECRETARY OF TRANSPORTATION FOR SECURITY AT THE DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 107-1040]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1040
 
                   NOMINATION OF JOHN W. MAGAW TO BE
                   UNDER SECRETARY OF TRANSPORTATION
                          FOR SECURITY AT THE
                      DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 20, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation













                   U.S. GOVERNMENT PRINTING OFFICE
87-605                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001














           COMMITTEE ON COMMERCE, SCIENCE AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel















                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on December 20, 2001................................     1
Statement of Senator Burns.......................................     8
Statement of Senator Hollings....................................     1
Statement of Senator Hutchison...................................     6
Statement of Senator McCain......................................     4
    Prepared statement...........................................     5
Statement of Senator Rockefeller.................................     1
Statement of Senator Wyden.......................................     5

                                Witness

Magaw, John W., nominated to be Under Secretary of Transportation 
  for Security, Department of Transportation.....................    11
    Prepared statement...........................................    13
    Biographical information.....................................    14
Mineta, Hon. Norman, Secretary of Transportation, Department of 
  Transportation.................................................     9
Specter, Senator Arlen, U.S. Senator from Pennsylvania...........     8

                                Appendix

Written answers to questions from Hon. John McCain...............    35












                 THE NOMINATION OF JOHN W. MAGAW TO BE

                   UNDER SECRETARY OF TRANSPORTATION

                          FOR SECURITY AT THE

                      DEPARTMENT OF TRANSPORTATION

                              ----------                              


                      THURSDAY, DECEMBER 20, 2001

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:38 a.m. in room 

SR-253, Russell Senate Office Building, Hon. Ernest F. 
Hollings, presiding.

         OPENING STATEMENT OF HON. ERNEST F. HOLLINGS 
                U.S. SENATOR FROM SOUTH CAROLINA

    The Chairman. The hearing will please come to order. The 
Subcommitte Chairman, Senator Rockefeller, is on his way over. 
Having an office in the Hart Building has made for all kinds of 
difficulties and he is on his way actually from his little 
office over there in the Capitol.
    I am trying to get down to the floor during the last couple 
of days to talk about port security--there is our Chairman, 
good.
    Senator Rockefeller. My apologies.
    The Chairman. I was just telling them you had to come all 
the way over from the Capitol.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. We welcome both of you. I did not 
expect you, Mr. Secretary, but here you are and that is an 
added pleasure. Thank you.
    We have worked very hard on this on the Committee and I 
will be frank to say that there were some of us who at the 
beginning felt that the law enforcement aspect of this ought to 
be done through the Department of Justice, not out of any lack 
of consideration for the Department of Transportation, just 
because the Department of Justice obviously had more law 
enforcement experience at a deeper level.
    It did not work out that way and we are not disappointed in 
that because the responsibility now rests under the law with 
the Department of Transportation and with you, sir, as the 
person who will be in charge of that.
    I will say that I think all of us on this Committee believe 
that the status quo is not acceptable. That is why we passed 
the law that we did. There are people that board big planes in 
West Virginia. But anybody who boards planes in West Virginia 
has the same right, it seems to me, to security as somebody who 
boards a big plane in Chicago or some other place.
    We put in some pretty tough deadlines. People have raised 
questions about that. We did that because we think that it is 
part of what our responsibility to take a system which is 
accustomed to operating more or less at a certain level and 
saying, no, this is different, September 11th changed the world 
and it is going to change all of us. It certainly has changed 
the way we have and have not done business in the Congress, and 
it has to change the way everybody operates.
    You obviously face a lot of very critical deadlines, by 
putting out new screening employee standards right away and 
screening every ongoing passenger aircraft by mid-January--that 
is a deadline of pressure. Deploying new EDS systems by the end 
of 2002; you know, two companies making it now. Can there be 
more? Does the market system work for us? Well, it looks like 
the DOT is going to have to make sure that it does.
    I think we have given you the tools and the money to do a 
good job. You need to tell us whether you think we have or not. 
I think the one thing that we cannot accept is the phrase ``it 
cannot be done.'' That is the one thing we cannot accept and I 
think that is the one thing where we will be very nettlesome in 
the national interest.
    During the Second World War it was really stunning the way 
factories all of a sudden sprung up and they were producing 
tanks and airplanes, and they had been producing other things 
before and then like that, all of a sudden, women were in the 
workforce. America really changed, and that was one kind of a 
shock.
    This is actually a more severe kind of a shock because it 
has longer term implications. It is much more complex, and in a 
sense it has given the country a chance to say: All right, let 
us prepare ourselves for the next 25 or 40 years because we 
think this is what we are going to be facing, so we better do 
it right and we have to do it fast, because 2 years from now, 
if something happens 2 months from now, is not good enough.
    The hiring, training, and deploying of more than 30,000 
people, that is not going to be easy. We want to hear about 
that. New technologies, new systems, that will be perhaps more 
easy, but needs to be hurried along. We want to hear about 
that. Intelligence information is going to be shared. That is 
an extremely critical factor. What is the relationship between 
screeners and intelligence agencies within our own country and 
other countries in terms of monitoring a suspicious passenger.
    So all this calls upon an experience that you, Mr. Magaw, 
have in my judgment. Your job will not be easy. We know, for 
example, that you are going to have to purchase a thousand new 
EDSs, and they are meant to be a million dollars apiece. You 
have got to deploy, as I indicated, 30,000 people.
    We had a hearing in November in Morgantown, West Virginia, 
Mr. Secretary. Jane Garvey was there. It was all about 
biometrics and that is the whole interesting part of the 
technology of all of this.
    Again, we are with you. We do oversight, but in this case 
we are all on the same side in the national interest, and 
therefore we are pushing like you are pushing, and we want to 
hear how you are pushing, understanding that neither of us want 
no for an answer.
    With that, if the Ranking Member, or obviously, the 
Chairman of the Full Committee want to make a statement, or 
anybody else, I would be happy to have that, and then we will 
hear from you gentlemen.
    The Chairman. Thank you very much, Mr. Chairman. We welcome 
our colleague Senator Specter, who has an interest in this 
particular hearing, to sit with the Committee and participate.
    Otherwise, Mr. Secretary, you and I have got two serious 
concerns. One of course at the moment is the airline security. 
The other is port security. I want to thank you publicly for 
all of your help in clearing that bill. We have got it cleared 
now by the Department of Transportation and by the Office of 
Management and Budget.
    But we have got political machinations going on the floor 
and we know that bin Laden and his terrorist group came into 
the port of Mombassa, offloaded their terrorists and their 
explosives, blew up the embassies in both Kenya and Tanzania, 
and that could happen to us very easily because we do not have 
any port security and we have got to move this as expeditiously 
as we possibly can.
    In that light, we have not, in this Senator's judgment, 
moved as expeditiously on airline security. There was foot-
dragging with respect to actually moving it. Everyone seemed to 
want to protect the contractors, particularly on the House 
side. We wasted a month on this side of the Capitol trying to 
put employees, airline employees that we thought we had taken 
care of under the bailout, on the airline security bill, and we 
wasted another month over on the House side with Mr. DeLay 
calling up the lobbyists and saying: Come on up and please 
lobby us and help us get the votes for what the House voted on 
almost unanimously, only 9 dissenting votes, for.
    Now, that is the program. It is a tough, tough mission. 
There is not any question about that. What nettles this 
particular Senator is the constant PR coming out of the 
Department of Transportation how difficult it is, how we are 
never going to be able to get it, how we cannot do this and we 
cannot do that.
    Just say, tell that PR man to say: We are working as hard 
as we can. Airline security and checking of baggage is in the 
airline interest. Do not worry about the delays. I worry about 
the delays. I am going to travel again this weekend, as I have 
almost every weekend this year, in air travel, and I do not 
like to be delayed. But foremost now, and that has got to be in 
our minds, is the security and the checking of that baggage, as 
well as the securing of that airplane itself.
    So we constantly are hearing how difficult it is going to 
be. What the Committee wants to know is that you are doing the 
best you can. We know it is tough all the way around, and let 
us see how it works out and we are going to be working together 
on it.
    But tell whoever is putting it out that, whatever it is, he 
cannot get the equipment, he cannot do this, he cannot do that, 
we want to know what can be done. In that light, just tell 
DOT's PR person to take a weekend off, come back, and say: We 
are doing all we possibly can. That is what we want to know, 
and then we will check to see that that is a true statement.
    Thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Mr. Chairman.
    Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. I will be brief. 
Republican Senators, I believe, have a meeting called around 10 
o'clock. Also, I want to be on the floor to support Senator 
Hollings on this very important seaport security issue. I want 
to congratulate the Chairman for his almost singlehanded effort 
to bring this important issue to fruition before we leave for 
our break.
    I am going to support Mr. Magaw as strongly as I can. I 
believe the President should have the right to select the 
people that he feels are most qualified to serve him in this 
very important, very critical position. I also feel that Mr. 
Magaw's accomplishments at ATF are on the record and indicate 
that he is well qualified to perform these functions.
    Mr. Magaw, two points. One, and the Chairman referred to 
it, in an almost unprecedented fashion, that the Secretary of 
Transportation and his people canceled several meetings that 
were scheduled with us during the consideration of the Airport-
Airline Security Act, because the House obviously drove the 
agenda until finally they could no longer sustain a position, 
with the support of most of the lobbyists in town and the major 
airlines. The fact is, the Department of Transportation people 
were in the room when we came up with these, finalized our 
provisions of the bill, and there was never a word from the 
Department of Transportation that they could not make a 60-day 
mandate on checked baggage. There was never a comment, never. 
They were in the room, at least at the end after they had 
exhausted all their efforts on the other side, and completely 
ignored the Senate views on this issue. Fortunately, public 
opinion crushed the opposition to the Senate bill.
    The second thing is, Mr. Magaw, the major airlines, not all 
airlines, the major airlines continue to have an inordinate, 
inordinate, influence not only on this side of Capitol Hill 
here in the Senate and the House because of the big money and 
the donations, but they have an inordinate influence in the 
Department of Transportation as well. That is my opinion. That 
is my view from many years membership on this Committee, both 
as Ranking Member and as Chairman of it.
    You cannot let the major airlines drive your agenda, Mr. 
Magaw. If you do, you will not be able to carry out your 
responsibilities to the American people. It is well known that 
the major airlines have complete and open access to every 
member of the Senate and the House and to the Secretary of 
Transportation and his people. That is fine. But they should 
not have an inordinate influence over the decisions that are 
made by the Department of Transportation, including decisions 
that could be harmful to smaller airlines.
    So I hope you will keep that in mind. I tell you that, Mr. 
Magaw, from many years of experience in watching the major 
airlines block reforms, whether they be an airline passengers 
bill of rights or now an attempt to block this provision 
concerning checked baggage.
    So if the Department of Transportation cannot meet the 
guidelines laid down in the legislation that was passed, then 
they must answer as to why they did not speak up at the time 
the legislation was being written since they were in the room 
at the time.
    I wish you every success. It is a very difficult challenge 
that you are taking on. I pledge, as well as every other member 
of this Committee, to work with you as closely as possible 
because you will have very, very significant and heavy 
responsibilities.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]
              Prepared Statement of Senator John McCain, 
                       U.S. Senator from Arizona
    Thank you, Mr. Chairman. I commend you for moving so quickly on 
this hearing.
    The terrorist attacks of September 11 took a devastating toll on 
our country in terms of lives and physical destruction. As we continue 
to deal with the immediate impact of those tragic losses, there are 
significant long-term ramifications that must be addressed. One such 
matter is the security of our air transportation system, which is now 
linked inextricably with national security.
    Undoubtedly, aviation security has been one of the most important 
issues confronting the Nation in the past 3 months. It has been 5 weeks 
since Congress finally took action by passing the Aviation and 
Transportation Security Act. This landmark legislation is just the 
first step in the long process of overhauling aviation security. The 
new Transportation Security Administration, or TSA, will have 
significant responsibilities, including the screening of all people and 
property that go aboard passenger aircraft.
    The challenges facing the head of this agency are daunting. Almost 
from scratch, the Under Secretary will have to build an enormous 
security and law enforcement structure in a short period of time. 
Congress has provided many of the needed resources to get this effort 
off the ground, but following through will require dedication and 
determination on the part of many people; especially the Under 
Secretary. That is why I am pleased the President acted so swiftly on 
the nomination of Mr. Magaw, who has an impressive record of public 
service in law enforcement and security. The sooner he can get on the 
job, the sooner we can restore the confidence of the flying public. 
While the system is safer now than it was before September 11, there is 
still much that needs to be done.
    It will be important for the Under Secretary to be as independent 
as possible. There were more than a few Senators and others who wanted 
the TSA to be under the jurisdiction of the Justice Department. Some 
people believe that DOT is too close to the industries it regulates. 
While the TSA should be concerned with customer service, under no 
circumstances should security be compromised because airlines or 
passengers find it inconvenient or a little more costly.
    I also expect the Under Secretary to work closely with the DOT's 
Inspector General. The IG's office has extensive experience monitoring 
aviation security. I believe the IG and 2 his personnel have much to 
offer the overall effort to improve security.
    I thank Mr. Magaw for his willingness to undertake this difficult 
challenge, not only in aviation, but in other critical areas such as 
maritime and surface transportation. I do not envy him the task he 
faces, but I appreciate his continuing service to our country. If he is 
confirmed, as I expect to happen, I will look forward to working with 
him in the weeks and months ahead.

    Senator Rockefeller. Thank you, Senator McCain.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. First let me say, 
Mr. Chairman, I very much agree with your opening statement. I 
would only make a couple of additional points.
    The first is that when it comes to actually implementing 
airline security rules there is a long history of backsliding, 
of whittling down, of lost momentum. What I want to hear this 
morning from Mr. Magaw is how it is going to be different this 
time.
    As of right now, there is something like only 160 of the 
2,000 screening devices that are needed in place. I want to 
hear, for example, how that is going to be done. I also want to 
hear how Mr. Magaw is going to use the huge amount of power 
that this office has been given in terms of transportation 
security to bypass the traditional rulemaking kind of process. 
There is an opportunity here to really expedite the security 
rules that are necessary and I want to hear how that is going 
to be used.
    At the end of the day, if the job is going to get done 
right in terms of airline security, Mr. Magaw, you are going to 
have to be the point person to get it done, and I want to make 
sure this time it is going to be different than the history of 
the last 10 or 15 years where there would be a tragedy, 
Congress would respond, and then there would be slow motion 
implementation. That is what has got to change.
    I thank Chairman Rockefeller, who as usual is working with 
our colleagues, for the chance to make this opening statement, 
and I yield my time.
    Senator Rockefeller. Thank you.
    I recognize the pressure on the other side and I call Kay 
Bailey Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. I will accept the co-chair designation. 
But you started the early bird rule, so go ahead with Senator 
Burns.
    Senator Rockefeller. Texas is bigger than Montana.
    [Laughter.]
    Senator Hutchison. Thank you, Mr. Chairman.
    Like so many people here, I think we got off to a rocky 
start on this transportation security bill and the process has 
not been perfect. However, we have got to put it behind us. I 
think it is a very positive sign that President Bush has made 
this very early appointment. He has said this is a top 
priority, and we need the person in place who is going to have 
the full responsibility of putting the system in place.
    I am going to support your nomination, and I think we can 
learn from some of the lapses of the past and go forward and do 
things right. One of the things that has concerned me is the 
record of the FAA and the Department of Transportation missing 
congressionally-mandated deadlines. I am not talking about this 
bill. I am talking about 5 years ago, and I am talking about 1 
year ago. We have waited 5 years for a rule setting forth the 
qualifications and standards for security screening companies.
    I think it was the lack of progress that caused many of the 
lapses that people see in airports across the country, 
specifically, in airport screening and the lack of 
professionalism. Now, we have a chance to do this right. 
Congress did not have faith that we could put a band-aid on a 
bad system. They decided to take it out by its roots and start 
from scratch and put in a professional law enforcement security 
system in our airports.
    Mr. Magaw, obviously your background is law enforcement and 
security, not transportation. Therefore, I think the signal has 
been sent that this is a law enforcement security function. I 
want that to work. I want that assumption to work, because it 
has been the premise of federalizing the system that we would 
make this a security career track and that is what I want it to 
be. I think you have the opportunity to put in place a security 
career track in this department.
    There are some other areas that I think have been largely 
neglected that you must address. General aviation is very much 
a part of aviation security. Thank heavens the FBI and our 
intelligence agencies immediately saw the possibility of the 
use of crop dusters and small aircraft for disseminating 
chemical and biological weapons and shut it down. However, you 
are going to need to put a system in place that keeps the tight 
security in general aviation that we are seeing in airports and 
in large aviation companies.
    Our Chairman and Ranking Member mentioned port security. 
This is going to be in your bailiwick, and you cannot ignore it 
because it is one of the security threats. I happen to be from 
a State that has the largest chemical complex in the world and 
it is right on the water. We must address the issue of port 
security and security for that complex that can be accessed by 
rail, by highway, and by water. This is something that I am 
going to ask you to look at immediately and put in your 
priority. Of course, we are going to have a port security bill 
that is going to give you the capability to do this and we will 
make sure that you have the money you will need to have 
security put in our ports.
    I happen to know about my ports on the Gulf Coast, but of 
course, our Pacific and Atlantic ports are every bit as 
vulnerable. This will be a major issue for you.
    Rail security and highway security are also major issues. 
Many chemical weapons could be transported by these means. You 
have a huge job and there is no doubt that you have had a big 
role in law enforcement and hopefully, you will be able to put 
people in place who have the background and experience to make 
these systems work.
    I appreciate the job that you are taking. It is certainly 
one that will be a challenge for you. We want to be helpful. 
That means we have to have a lot of communication, and we will 
make sure that you have the tools you need to do this job.
    I will just end, Mr. Chairman, by saying that this morning 
I saw the venerable Jack Welch on television talking about many 
of the issues that we are facing today. One of the things he 
said that I thought was very important is that one of the 
reasons that people have gone back to flying is because they 
trust what the government has been doing to address the crisis 
of our country since September 11th. The President and Congress 
have taken many actions to stop more crises from occurring.
    You are going to be the sole person responsible for 
assuring that trust is warranted and is merited, because you 
have a vast responsibility to keep our transportation system 
secure. Not only will it address the security issues of the 
people of our country, but also the economy.
    Thank you.
    Senator Rockefeller. I think both you gentlemen can 
understand why I am proud to work with Kay Bailey Hutchison. 
That was a superb and thoughtful statement, which will be 
followed by another one by Conrad Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman. My statement will 
be very brief.
    You know, as we worked our way through the new law it kept 
coming back to me that, how do we protect the American public 
or anybody and keep them safe as long as you have a mind set 
that those who would commit such horrendous acts are willing to 
die in the commitment of that act? That is a tough job.
    Also, on September the 11th, how many laws were broken 
other than the hijacking of the airplane or the commitment of 
crimes of harm and injury to the people? In other words, the 
actual, did they break any laws at the airports? I do not think 
so. Now, under existing law are they breaking any law? I do not 
think so.
    America has got to realize that this is what makes this a 
very, very difficult job. I am not real sure that you can band-
aid or pass a law that would prevent what happened on September 
the 11th. But I know one thing. I think we have an obligation 
and a duty to support this. I would imagine that it will have 
to be revisited later to change some things because of just the 
nature of the beast more than anything else.
    So I congratulate you for stepping forward and I look 
forward to working with you and the Department of 
Transportation as we try to get this in place and make it work. 
I thank you for coming today.
    Senator Rockefeller. Thank you, Senator Burns.
    Senator Specter, who is our welcome visitor.

               STATEMENT OF HON. ARLEN SPECTER, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman, and thank you for 
permitting me to participate briefly in this proceeding.
    Mr. Magaw was a key witness in an oversight hearing which I 
chaired on the Judiciary Subcommittee on Ruby Ridge and Mr. 
Magaw's testimony at that time raised substantial questions in 
my mind as to his judgment. When I noted in the press a week 
ago Tuesday that he had been nominated for this important 
position, I called the Secretary of Transportation and told him 
of my concerns.
    Senator Craig, who was in the hearing of the subcommittee 
and I met extensively for a little more than an hour with Mr. 
Magaw on Tuesday, and I wanted to bring this matter to the 
attention of my colleagues expeditiously because I am very much 
concerned that the Secretary and the Administration be able to 
move ahead very promptly with the critical issue of airport 
security.
    Very briefly stated, Ruby Ridge was an incident which 
occurred in August 1992, which originated when agents of 
Alcohol, Tobacco and Firearms contacted Randy Weaver, 
entrapping him and asking him to sell them sawed-off shotguns. 
When I say ``entrap,'' a pretty clear case, based on my 
experience in the criminal law, also the conclusion of the jury 
which acquitted Weaver on those charges.
    When Weaver did get two sawed-off shotguns, the ATF agents 
then sought to have him be an informant, which he declined. 
Thereafter, Weaver was indicted. Weaver did not get notice of 
the hearing and did not show up, and the Alcohol, Tobacco and 
Firearms unit informed the U.S. Attorney's Office that Weaver 
was suspected of bank robberies, which was, in fact, false, and 
that he had certain convictions.
    As a result, the marshals went to arrest Weaver and during 
the course of their effort to arrest him, there was a 
firefight. U.S. Marshal Deagan was killed and Randy Weaver's 
14-year-old son Sammy Weaver was killed.
    Then the matter became the subject of a full-scale Federal 
invasion, with the FBI getting into the matter and the hostage 
rescue team being dispatched. Stated very briefly, Weaver's 
wife was killed in the process.
    The subcommittee found that the conduct of the FBI and 
Alcohol, Tobacco and Firearms was atrocious, many, many 
mistakes made. As a result of those hearings, FBI Director 
Freeh conceded that the FBI was wrong and changed the rules of 
engagement, conceded that the use of deadly force was, in fact, 
unconstitutional.
    Mr. Magaw steadfastly insisted that everything the Alcohol, 
Tobacco and Firearms unit did was correct. In the face of Agent 
Byerly's statement that did not remember correcting the record 
to the U.S. Attorney, Mr. Magaw said that he had, although 
Byerly, the man who knew, said he could not remember having 
corrected that.
    My purpose here is to try to get what is an obvious 
concession of impropriety by Alcohol, Tobacco and Firearms both 
as to the substantive matter and also my own view as to Mr. 
Magaw's judgment and competency, since I, as every other 
Senator, has a rule in passing on his confirmation.
    I really only have one question, Mr. Chairman, and that 
question to Mr. Magaw is----
    Senator Rockefeller. You will have a chance to ask that.
    Senator Specter. OK.
    Senator Rockefeller. But not yet, unless you want to 
conclude your statement.
    Senator Specter. That is all I have to say.
    Senator Rockefeller. OK, OK. Thank you very much, Senator 
Specter.
    Obviously, I think we now turn to our two witnesses, 
Senator Mineta, Under Secretary Designate, who will have my 
vote, Mr. Magaw. Gentlemen, whatever you wish to say we want to 
hear.

 STATEMENT OF HON. NORMAN MINETA, SECRETARY OF TRANSPORTATION, 
                  DEPARTMENT OF TRANSPORTATION

    Secretary Mineta. Mr. Chairman, thank you very, very much 
to you and Chairman Hollings, Senator McCain, and all the 
Members of the Committee for allowing me to have this 
opportunity to introduce John Magaw.
    On behalf of President Bush, I am honored and pleased to 
present President Bush's nominee to lead the new Transportation 
Security Administration as the Under Secretary of 
Transportation for Security, a position created by this 
Committee under the Aviation and Transportation Security Act.
    Before proceeding, I want to thank Members of the Committee 
for the leadership that all of you have demonstrated in passing 
this very historic security legislation and for the expeditious 
manner in which you folks have scheduled this confirmation 
hearing. Confirming the new Under Secretary as we enter the 
busy holiday season punctuates Congress' resolve to make the 
aviation transportation system and all modes the safest in the 
world.
    So I am here today to share with you that if we could have 
designed an individual for this job, it would have been John 
Magaw. In today's world of ever-present threats, I am confident 
that a man to whom eight Presidents have entrusted their lives 
possesses the type of courage and integrity that this Committee 
must have envisioned for the position of Under Secretary.
    Since 1967, as all of you are aware, John has served in 14 
assignments with the Secret Service, before being appointed 
Director in 1992. In 1993, the Bureau of Alcohol, Tobacco and 
Firearms was in trouble and the President turned to John Magaw. 
Today John is the Acting Director of the Office of National 
Preparedness at the Federal Emergency Management Agency.
    The American traveling public could not ask for a finer, 
more devoted public servant, nor an individual more qualified 
in law enforcement and security than John Magaw. The skills 
that he has developed over the course of his stellar career 
will prove instrumental as he goes about the job of rebuilding 
public trust and confidence in our transportation systems.
    I will close by saying this; John Magaw is a man who has 
stood shoulder to shoulder with eight Presidents and he has 
been willing to lay down his life for every one of them. Today 
another President has asked him to stand shoulder-to-shoulder 
with the American people and to demonstrate the same courage 
and the same resolve and the same leadership on their behalf. I 
am confident, Mr. Chairman, that he will do nothing less.
    So it is my honor to present to you at this point John 
Magaw.
    Mr. Chairman, if you would excuse me, I would appreciate 
it, since I have another appointment or hearing or another 
meeting to attend to with another former colleague of the U.S. 
Senate.
    Senator Rockefeller. We are very grateful that you came, 
Mr. Secretary, and we wish you well at your next hearing. I 
know that is just one joy after another.
    Secretary Mineta. Thank you very much, Mr. Chairman.
    Senator Hutchison. Mr. Chairman, I would just like to also 
thank the Secretary for coming and highlighting the importance 
of this part of his Administration and say that I look forward 
to having him work with us in this positive way.
    Thank you.
    Secretary Mineta. Absolutely. Thank you very much.
    Senator Rockefeller. Mr. Magaw, we welcome your testimony, 
sir.

STATEMENT OF JOHN W. MAGAW, NOMINATED TO BE UNDER SECRETARY OF 
   TRANSPORTATION FOR SECURITY, DEPARTMENT OF TRANSPORTATION

    Mr. Magaw. Thank you, Mr. Chairman and the Members of the 
Committee. It is a pleasure for me to be here today. Needless 
to say, I am honored that President Bush has nominated me to 
serve as the first Under Secretary of Transportation for 
Security. I am grateful that you have called this hearing in 
just a few days after Secretary Mineta recommended me to the 
President. I am grateful for your leadership, as the Secretary 
has just mentioned, in drafting and shepherding through the 
Congress, and all of the things that need to be coordinated to 
do that, this Aviation and Transportation Security Act. The 
legislation has created the post that I hope to fill and it was 
a very critical element in the Nation's response to the events 
of September 11th.
    Mr. Chairman, I look forward to working with this Committee 
to address the challenges that face the Department of 
Transportation and the Transportation Security Administration 
in the coming months and indeed in the coming years.
    I have had the great honor of serving the American people 
for over 40 years and in the process, as the Secretary 
mentioned, have been honored to serve eight Presidents. But it 
is a special privilege to be nominated by this President at 
this time in our history. Transportation security is an 
enormously important issue. It just cannot be overstated. It 
effects every element of our society. The work of the 
Transportation Security Administration is to restore confidence 
of the traveling public and the commercial shippers, while 
protecting the system from daily threats.
    I am both moved and challenged by the opportunity to 
oversee and coordinate a national plan that establishes the 
highest degree of safety and at the same time functions with 
the least amount of disruption to all those who move about this 
great country.
    Mr. Chairman, you will not hear me say ``can't.'' It is not 
in my vocabulary in this particular case, sir, and we will work 
to make sure that it does not creep in there.
    I will dedicate my efforts every day to the memory of those 
who lost their lives and their families in the tragic events of 
September 11th. We owe them nothing less.
    For most of the last 2 years, I have been serving as Senior 
Adviser for Terrorism Preparedness to the Director of the 
Federal Emergency Management Agency and in a variety of roles, 
including the Acting Director of FEMA during the inauguration 
and the transition period. The events of September 11th make 
clear that our transportation system does present an attractive 
target to terrorists. My experience at FEMA will help me build 
an agency that can help prevent such attacks in the future.
    For 6 years before being at FEMA, I was the Director of the 
Bureau of Alcohol, Tobacco and Firearms. I filled that role at 
the request of the Treasury Secretary, who asked me to apply my 
management expertise and law enforcement background to an 
agency suffering in the wake of tragedy. As Secretary Specter 
mentioned this morning, Ruby Ridge occurred before I went to 
BATF.
    The experience will be useful because that agency required 
an organizational transformation while at the same time 
carrying out its investigative, law enforcement, regulatory 
functions as well as its tax collection responsibility. At the 
Transportation Security Administration, we must make our 
national system safer as we build the organizational structure. 
This agency is tasked with transforming how we secure all modes 
of transportation in the U.S. and the Congress has made it 
clear many times before today and you, Mr. Chairman very 
clearly, and both Senators clearly that it has to be done in a 
different paradigm, with a different paradigm in consideration.
    I began my career with the U.S. Secret Service in 1967 and, 
as the Secretary mentioned, served in 12 different assignments 
before managing the unit responsible for protecting the 
President and the First Family, and I was appointed the 
Director of the Secret Service in 1992. My time at the Secret 
Service provides an excellent foundation for the job of Under 
Secretary. Not only is the Secret Service tasked with 
protecting the President and the Vice President and their 
families, as well as numerous other senior U.S. and foreign 
officials, including when they travel and by all modes of 
transportation, but it is also, the Secret Service, a highly 
successful investigative and law enforcement organization.
    There are other key aspects in the Secret Service that are 
applicable here. They include but are not limited to: the 
proactive and real-time use of highly sensitive intelligence 
information to ferret out dangerous threats; a system-by-system 
approach of security, that is to say, you never have one line 
of defense. There has to be rings of defense and you have to 
have more than one security clearance that allows you into an 
area where you can do damage.
    Another one is operating in a highly visible environment, 
in which every public move is heavily scrutinized. This will 
certainly be the case as TSA functions to make the public 
safer.
    The job of standing up the Transportation Security 
Administration, a new Federal agency that will have sweeping 
authority and more than 30,000 employees and at the same time 
the mission of protecting the Nation's entire transportation 
system, in some ways is an unprecedented undertaking. Secretary 
Mineta has already formed a special task force with starting 
the new agency, identifying all the department's statutory 
requirements, and developing a modern approach to securing the 
Nation's transportation system.
    If confirmed, my focus will be on building a well-trained, 
professional and diverse workforce. This workforce will operate 
in a flat, flexible, agile and responsive organization and will 
use the best technology to move critical information around the 
system in real time. This workforce will be led by a world-
class team that understands law enforcement, understands 
security, understands the importance of this task, as well as 
the opportunities and constraints facing consumers and 
providers of transportation.
    This workforce will operate in a structure that meets the 
needs of all the players in transportation at every level, in 
every organization, at every site, in every mode. This 
workforce will achieve high marks for efficiency and 
effectiveness at the Nation's airports, its seaports, its bus 
and rail terminals, and so on and so forth.
    In many ways, although unknowingly, I have spent my entire 
career preparing for the job of Under Secretary of 
Transportation of Security. President Bush, Secretary Mineta, 
the Congress, indeed the entire Nation, face great challenges 
in making the world's greatest transportation system the 
world's safest.
    I am ready to lead that effort. I look forward to working 
closely with this Committee and your talented staffs throughout 
my 5-year term to realize that aim.
    Mr. Chairman, that concludes my statement.
    [The prepared statement and biographical information of Mr. 
Magaw follow:]
  Prepared Statement of John W. Magaw, Nominee to the Office of Under 
     Secretary of Transportation for Security at the Department of 
                             Transportation
    Chairman Hollings, Senator McCain, and Members of the Committee: It 
is a pleasure for me to be here today; I am honored that President Bush 
has nominated me to serve as the first Under Secretary of 
Transportation for Security, and am grateful that you have called this 
hearing just a few days after Secretary Mineta recommended me to the 
President.
    Your leadership in drafting and shepherding through Congress the 
Aviation and Transportation Security Act--the legislation that created 
the post I hope to fill--was a critical element in the Nation's 
response to the events of September 11. Mr. Chairman and Senator 
McCain, I look forward to working with this Committee to address the 
challenges that face the Department of Transportation and the 
Transportation Security Administration in the coming months and years.
    I have had the great honor of serving the American people for over 
40 years, and in the process have served 8 Presidents. It is a special 
privilege to be nominated by this President.
    Transportation security is an enormously important issue--it 
affects every element of our society. The work of the Transportation 
Security Administration is to restore the confidence of the traveling 
public and commercial shippers while protecting the system from daily 
threats.
    I am both moved and challenged by the opportunity to oversee and 
coordinate a national plan that establishes the highest degree of 
safety and, at the same time, functions with the least amount of 
disruption to all those who move about this great country.
    I will dedicate my efforts every day to the memory of those who 
lost their lives in the tragic events of September 11. We owe them 
nothing less.
    For most of the last 2 years, I have been serving as Senior Advisor 
for terrorism preparedness to the Director of the Federal Emergency 
Management Agency, and in a variety of other roles, including that of 
Acting Director. The events of September 11 make clear that our 
transportation system does present an attractive target to terrorists; 
my experience at FEMA will help me build an agency that can help 
prevent such attacks in the future.
    For 6 years before joining FEMA, I was Director of the Bureau of 
Alcohol, Tobacco and Firearms. I filled that role at the request of the 
Treasury Secretary, who asked me to apply my management expertise and 
law enforcement background to an agency suffering the wake of a 
tragedy.
    That experience will be useful because that agency required an 
organizational transformation while at the same time carrying out its 
investigative, law enforcement, and regulatory functions, including 
commodity tax collection.
    At the Transportation Security Administration, we must make our 
national system safer as we build the organizational structure. This 
agency is tasked with transforming how we secure all modes of 
transportation in the U.S., and the Congress has made clear that a new 
paradigm is in order.
    I began my career with the U.S. Secret Service in 1967, and served 
in 12 different assignments before managing the unit responsible for 
protecting the President and the First Family. I was appointed Director 
of the Secret Service in 1992.
    My time at the Secret Service provides an excellent foundation for 
the job of Under Secretary. Not only is the Secret Service tasked with 
protecting the President and Vice President and their families, as well 
as numerous other senior U.S. and foreign officials, including when 
they travel by all modes of transportation, but it is also a highly 
successful investigative and law enforcement organization. There are 
other key aspects of the Secret Service that are applicable here. These 
include, but are not limited, to:
    <bullet> The proactive, real-time use of highly sensitive 
intelligence information to ferret out dangerous threats;
    <bullet> A system of systems approach to security--that is, 
integrating tools so that there is never just one line of defense, but 
always several; and
    <bullet> Operating in a highly visible environment in which every 
public move is heavily scrutinized--this will certainly be the case as 
TSA functions to make the public safer.
    The job of standing up the TSA, a new Federal agency that will have 
sweeping authority, more than 30,000 employees, and the mission of 
protecting the Nation's entire transportation system, is in some ways 
an unprecedented undertaking.
    Secretary Mineta has already formed a special task force charged 
with starting the new agency, identifying all of the department's 
statutory requirements, and developing a modern approach to securing 
the Nation's transportation system.
    If confirmed, my focus will be on building a well-trained, 
professional, and diverse workforce.
    This workforce will operate in a flat, flexible, agile, and 
responsive organization, and will use the best technology to move 
critical information around the system in real time.
    This workforce will be led by a world-class team that understands 
law enforcement and security, as well as the opportunities and 
constraints facing consumers and providers of transportation.
    This workforce will operate in a structure that meets the needs of 
all the players in transportation, at every level of every 
organization, and at every site in every mode.
    This workforce will achieve high marks for efficiency and 
effectiveness at the Nation's airports, seaports, bus and rail 
terminals.
    In many ways, although unknowingly, I have spent my entire career 
preparing for the job of Under Secretary of Transportation for 
Security. President Bush, Secretary Mineta, the Congress--indeed, the 
entire Nation--face great challenges in making the world's greatest 
transportation system the world's safest. I am ready to lead this 
effort.
    I look forward to working closely with this Committee and your 
talented staffs throughout my 5-year term to realize that aim. Mr. 
Chairman, that concludes my statement; I would be pleased to answer 
questions.

                                 ______
                                 
          a. biographical and financial information requested 
                     of department/agency nominees
    1. Name: John William Magaw.
    2. Position to which nominated: Under Secretary of Transportation 
for Security.
    3. Date of nomination: December 13, 2001.
    4. Address: [Information not made available to the public.]
    5. Date and place of birth: [Information not made available to the 
public.]
    6. Marital status: Married--Helen F. Mahley.
    7. Names and ages of children: Jayne Mazzei, 45; Janet Schrom, 44; 
Mark Magaw, 43; Gary Magaw, 41; and Craig Magaw, 38.
    8. Education: B.S. Education--Otterbein College, 1957--Westerville, 
Ohio.
    9. Employment record: St. Mary High School--Coach & Teacher 1957-
1959 Columbus, Ohio; City of Columbus--Street Maintenance Summer Work 
Engineering Department 1957-1959 Columbus, Ohio; Ohio State Patrol--
Patrolmen & Instructor at OSP Agency 1959-1966 Columbus and Dayton, 
Ohio; Ohio State Department of Education--School Bus Safety 1966-1967 
Columbus, Ohio; U.S. Secret Service--Each Rank Thru Director 1967-1995, 
Columbus, Ohio and Washington, DC.; Detailed to ATF (October 1993); 
Bureau of Alcohol, Tobacco and Firearms--Director 1993-1999 Washington, 
DC; Federal Emergency Management Agency: Acting Director 
(Administration Change)--Jan.-Feb., 2001 Acting Deputy Director 
(Administration Change), Feb.-July, 2001; Acting Director of Office of 
National Preparedness, May-Dec., 2001; Senior Advisor to the Director, 
Dec. 1999-Jan. 2001 Washington, DC.
    10. Government experience: None other than listed.
    11. Business relationships: None.
    12. Memberships: International Association Chiefs of Police, Law 
Enforcement Committee; Explorer Scouts of America; Board of Trustees--
Otterbein College, Westerville, Ohio.
    13. Political affiliations and activities: (a) None. (b) None. (c) 
None.
    14. Honors and awards: Presidential Rank Meritorious, 1991-1999 and 
Presidential Rank Distinguished, 1995.
    15. Published writings: None.
    16. Speeches: See attached.
    17. Selection: (a) Yes, I have the leadership and management 
background, relevant experience, and knowledge required to stand up the 
new agency and meet the goals of the President, the Secretary and the 
Congress to ensure the security of Nation's transportation system 
infrastructure.
    (b) My extensive experience in law enforcement and national 
security with Federal, State and local government organizations, and in 
dealing with the private sector, coupled with my diverse managerial 
experience in successfully building and managing large organization, 
provide me with the tools I need to accomplish the mission of building 
an effective transportation security capability for the Nation.
                   b. future employment relationships
    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Please 
refer to the Deputy General Counsel's opinion letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No. However; in my official capacity as the Director, ATF, I 
was named in a number of lawsuits in connection with routine regulatory 
matters of the Bureau.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. I 
will consult with committee staff as regulations are developed.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. The Department of 
Transportation is responsible for implementing the provisions of the 
Aviation and Transportation Security Act of 2001.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated? 
During my forty plus years of government service, I have had the 
opportunity to direct and manage several agencies and activities 
involved in security, law enforcement, regulatory activities, and 
emergency management. I believe my experience has prepared me well to 
assume the leadership of a new agency with a high profile mission of 
profound importance to the President, the Congress and the American 
people.
    Over the course of my career, I have taken on many challenges in 
leading highly visible but distinctly different government agencies and 
activities. I was appointed the Director of the U.S. Secret Service 
after a progression from a career ladder that spanned 25 years of 
outstanding achievements, including top level assignments in each of 
the Service's diverse areas of responsibility including technical 
security, research and investigation, as well as, authority over the 
protection of dignitaries, the Vice President and President of the 
United States.
    While Director of the Secret Service, I was asked by the Secretary 
of Treasury to assume the helm of Bureau of Alcohol, Tobacco and 
Firearms (ATF) after the tragic raid at Waco, Texas. With the 
commitment and support of the men and women of ATF, we created a new 
vision of the agency that inspired us to make sweeping and bold 
organizational changes propelling the Bureau to the top echelons of law 
enforcement and, of equal importance, reestablishing public confidence 
and trust in us.
    In 1999, FEMA Director James Lee Witt asked me take on the position 
of Senior Advisor to the Director for terrorism preparedness. With the 
change of Administration, I then assumed the role of Acting Director 
for the agency and subsequently served as Acting Deputy Director until 
July 2002. As the Senior Advisor, I worked with directorates and 
offices to better focus the FEMA efforts in conjunction with other 
Federal agencies, the States and localities in providing assistance to 
support national capability building efforts for terrorism preparedness 
and response. This activity resulted in an increasing recognition that 
FEMA needed to assume a broader leadership role for the Federal effort. 
As a result, on May 8, 2001, the President asked the FEMA Director to 
create an Office of National Preparedness (ONP) to coordinate all 
Federal programs dealing with weapons of mass destruction consequence 
management, and requested funding support from Congress to carry out 
this important activity.
    The ONP is now working in conjunction with the Office of Homeland 
Security headed by Governor Ridge, and will play an important part in 
supporting the national homeland security efforts, particularly in 
preparing local and State responders to better deal with terrorist 
attacks.
    2. Why do you wish to serve in the position for which you have been 
nominated? I am honored that the President has asked be to take on this 
challenge. As I said to the President, I have had the great honor of 
being of service to the American people for over 40 years and in the 
process have served eight Presidents. It is a special privilege to be 
nominated by this President and to continue to serve him and my country 
at this critical time in our history.
    Like all Americans, I am eager to do my part in responding to the 
recent attacks, and I dedicate my efforts to the memory of those who 
lost their lives in the tragic events of September 11.
    Transportation security is an enormously important issue affecting 
every element and every citizen of our mobile society. I can think of 
no greater need than to ensure the utmost security for all Americans as 
they enjoy their freedom and opportunity to travel about this great 
country and throughout the world, as we to better protect all of our 
vital transportation infrastructures.
    If confirmed by the U.S. Senate, I am looking forward to assisting 
Secretary Mineta and helping him fulfill the President's goal of a safe 
and secure America.
    3. What goals have you established for your first two, years in 
this position, if confirmed? My overarching goal is the same as the 
President's, the Secretary of Transportation, and the Congress in 
creating, standing up and supporting this new organization. That goal 
is to meet the critical need to enhance the security of the entire 
national transportation infrastructure, to ensure and maintain the 
highest level of protection and integrity of these most vital assets.
    I am fully committed to implementing the provisions of the Aviation 
and Transportation Security Act, to include meeting the timelines 
established by Congress as the Federal Government assumes leadership 
and responsibility for enhancing the security of the various 
transportation modes.
    Within the first 2 years, I intend to develop and implement the 
necessary actions to increase airport security, airline and crew 
security, and baggage screening security. To accomplish this, I will 
direct the hiring and training of the needed security personnel, 
coupled with using the newest and best technology available with the 
overarching goal to build and maintain the finest and most secure 
transportation system in the world.
    During this 2-year period, it is equally critical to implement the 
strong new authority in section 101 of the Act to centralize security 
for all of the Nation's transportation facilities, operations, and 
passengers in the new Transportation Security Administration. 
Significant new duties for gathering and disseminating intelligence, 
conducting needed research and development, planning for national 
emergencies (including terrorism) and coordinating security 
improvements across the modes are just a few elements of this new 
function. In addition, the new administration must work closely with 
the Transportation Security Oversight Board established by section 102 
of the Act.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? From my many years of experience in 
positions dealing with law enforcement, regulatory programs, and 
developing and building new organizations, I feel I have the right mix 
of background, knowledge and tools to immediately perform at the 
highest level in this important position.
    I will rely on the considerable expertise and knowledge of the 
management and support staff already available to help me become better 
acquainted with the details of transportation security issues, the 
resources available to support this effort, and assistance in 
developing procedures to most effectively implement this large and 
important undertaking.
    5. Who are the stakeholders in the work of this agency? Every 
single American and many important business and services are 
stakeholders in this new agency. Almost every day, most Americans have 
some connection to the transportation infrastructure. In aviation, it 
includes owners or operators of airports and airlines, and crewmember 
and passengers flying on airplanes. Beyond the aviation industry, 
stakeholders include millions of people steering, engineering, 
conducting or riding trains, subways, buses, boats and ferries; or 
working in one of our many port facilities around the country.
    Beyond individuals and businesses, the economy as a whole and the 
strength of our homeland security are also stakeholders in terms of a 
secure, safe and robust transportation infrastructure.
    6. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10 (above). 
If confirmed for this position, I intend to include all relevant 
stakeholders to solicit information and their views on issues affecting 
transportation security. I want to solicit all points of view regarding 
issues and concerns in this area as it affects important and large 
segments of the economy, industries, companies, and individuals.
    My first priority will always be to achieve the paramount goal of 
enhancing and maintaining the highest levels of security and integrity 
for our transportations systems.
    7. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? In all of my 
leadership positions, I have always assumed the responsibility for the 
agency bottom line, supported by a robust management and financial 
accounting system. If confirmed, I would ensure that the new agency 
builds on such a system from the beginning to track its resources and 
costs, and ensure accountability to the Congress and the American 
people.
    At the Secret Service, I recognized the need to address a more 
efficient means of tracking the costs and staffing resources critical 
to the extensive travel conducted by Secret Service protectees. As a 
result, I drove the development and successful accomplishment of a 
mainframe program that resulted in significant cost savings to the 
government.
    At the ATF, I applied the same cost saving principles to the 
integration of criminal, regulatory, and tax programs which now enables 
ATF to take full advantage of the array of specialized tools Congress 
has provided to carry out the Nation's laws regarding alcohol, tobacco, 
firearms, and explosives without stratification and redundancies. These 
concerted efforts toward maximum efficiency earned ATF the highest 
rating on five consecutive audits by the Department of Treasury, won 
four Vice Presidential Hammer Awards, and warranted selection of the 
agency as finalist in Harvard University's Innovation in Government 
Awards for creative firearms trafficking programs and alcohol industry 
partnerships.
    (b) What experience do you have in managing a large organization? 
As I have already stated, I have led and managed several large 
organizations. This includes serving as the Director of the U.S. Secret 
Service with almost 5,000 employees, 58 field offices and other 
facilities; and as the Director of the Bureau of Alcohol, Tobacco and 
Firearms, with some 4,000 employees, 23 field divisions, and 
laboratories, training, and other support facilities.
    8. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. I am a firm supporter of the GPRA process. I 
have directed its use in organizations I have led by fully utilizing 
GPRA principles and strategic planning to identify measurable 
performance goals and outcomes.
    At the ATF, I established a strategic plan for that agency that is 
used as a model by other law-enforcement-related agencies. ATF's budget 
is driven by a Strategic Plan designed to provide the most effective 
method for achieving ATF's vision for a sound and safer America. That 
plan has been lauded by the General Accounting Office and the National 
Academy of Public Administration, a Performance Consortium chartered by 
Congress, for its adherence to the principles of Government 
reinvention.
    At FEMA, I supported four key Annual Goals in the FEMA fiscal year 
2001 performance plan focusing on the agency activity to support the 
FEMA Director, the White House and the National Security Council in the 
area of national security policy, programs and plans related to 
terrorism and for specifically building the national capability to 
respond to the consequences of terrorist acts. Over the past year FEMA 
has taken major steps in assuming the leadership role for Federal 
terrorism consequence management preparedness and response programs and 
activities.
    At FEMA, I directed the development of a Terrorism Preparedness 
Strategic Plan and a Terrorism Preparedness Implementation Plan in mid-
2000: that together describe the vision, mission, strategic goals, 
program objectives, and roles and responsibilities for the 
implementation of FEMA-wide programs and activities in terrorism 
preparedness. The documents have been used to reinforce the agency 
Annual Performance Goals and continue to provide a baseline of activity 
for me to address in facilitating the development of agency positions 
regarding our roles and responsibilities in this area, especially in 
the areas of interagency planning, training and exercises.
    (b) What steps should Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? In its responsibility for funding agency missions and 
programs, Congress has a great responsibility for ensuring that 
taxpayer dollars are effectively and efficiently spent. Agencies need 
to have well-articulated, measurable and achievable goals and should be 
held accountable for their implementation. Agencies should keep 
Congress apprised of progress in achieving goals and informed when 
their implementation may be delayed or impeded. I believe an open 
dialog is the best approach to finding a mutually acceptable solution 
to any problem or concern.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? I will be personally involved 
in the development of the agency strategic plan and the identification 
of the performance goals and tasks. Once committed to by management and 
staff, I will assume personal responsibility for their implementation 
and delivery of outcomes.
    9. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I believe in a 
collegial, collaborative management style that fosters teamwork and 
sharing of resources, both within and outside of the agency. This 
sharing leads to the most effective application of Federal resources in 
addressing and solving complex problems.
    I am a strong believer in long-range, strategic planning and hold 
myself and my subordinate leaders accountable for getting maximum 
results from available resources.
    I insist on the highest standards of ethics and integrity from all 
of my staff and model those standards personally.
    I believe in the value of every employee and that each has an 
opportunity to strive for excellence and contribute to the success of 
the organization. I encourage all who work with me to do their best and 
to ``autograph their daily work with excellence''.
    I am a vigorous proponent for the development of a workforce that 
looks like America, and will work tirelessly toward building and 
maintaining a diverse workforce at all levels.
    10. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I respect and honor the role of 
Congress in making our Nation's laws and carrying out its 
responsibilities for their implementation. Over the course of my 
career, I have participated in numerous hearings before several 
committees in both the House and Senate. To the best of my knowledge 
and ability, I have tried to be responsive to member needs to provide 
information that is requested.
    11. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. Throughout my government service, I have had very 
positive experiences working with the Inspectors General in various 
agencies. My previous positions as Director of the U.S. Secret Service 
and the Director of the Bureau of Alcohol, Tobacco and Firearms, as 
well as my recent assignments at FEMA provided me with a wealth of 
knowledge regarding the Inspector General operations. The Inspector 
General rightly provides an independent and objective review of agency 
programs and operations.
    I welcome an open and professional working relationship with the 
Inspector General. I am aware of the statutory authority and 
requirements for that function and believe it can provide valuable 
assistance and recommendations as I direct the development of policies 
and procedures for the new agency.
    If confirmed, I will utilize the resources of the Inspector General 
to help develop policies to improve economy and efficiency, with 
particular regard to preventing waste, fraud and abuse in agency 
programs.
    12. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. I will 
work closely with the Committee to implement the provisions of the Act 
as passed and signed into law.
    I will report back to the Committee on a regular basis to keep it 
apprised of progress made in implementing the Act as well as issues and 
concerns that may arise as we build the needed transportation security 
capabilities.
    13. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
state your personal views. I believe the provisions of the recently 
signed Aviation and Transportation Security Act of 2001 provide 
sufficient legislation and authority to stand up the new agency and its 
functions.
    If confirmed, I will continue to work with the Committee to help 
identify areas that may require additional legislative action in the 
future.
    14. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation. 
Yes. I will adhere to the timeframe established for implementation of 
the Act.

    Senator Rockefeller. Thank you very much, Mr. Magaw. It was 
a good statement and we appreciate it. You are certainly right 
about the gravity of the position to which I think you will be 
easily confirmed.
    Let me just start with two questions. One has to do with 
the screeners, which is kind of what got the most attention 
during the debate up and until the bill. You have a lot of 
discretion, and in my judgment rightly so. You can do a lot of 
things there. The law specifically says: ``Notwithstanding any 
other position of the law, the Under Secretary of 
Transportation for Security may employ, appoint, discipline, 
terminate, fix the compensation, terms, and conditions of 
employment in Federal service for such members or individuals 
as the Under Secretary determines may be necessary to carry out 
the screening functions.'' That is sort of Presidential in 
sweep.
    ``The Under Secretary shall establish levels of 
compensation and other benefits for individuals so employed.''
    I read that only to ask the following question. During the 
course of the debate, there was a lot of discussion, and some 
of it probably unfair and read as--interpreted as hostile to 
some of those who were screening, who were trying to hold down 
two jobs and getting 4 hours of sleep a night because of that, 
that we are dealing here with first-class citizens, and I want 
to make sure we are.
    Their rights, their privileges, their integrity has to be 
protected. We are doing that in a variety of ways because we 
have made a lot of money, much more money available for 
salaries. On the other hand, when we were doing the bill we 
were talking about 28,000. We were not exactly sure how many. 
Now it is 30,000, and it is a lot of people when you hire, when 
you have to go out and get a lot of people fairly fast, screen 
them; the FBI overloaded already; maybe you will be doing that 
yourself--I would like to hear about that if that is the case--
find out what their backgrounds are, and then to train them, as 
well as to watch them as they start their work screening.
    I am not talking about just the people what check what you 
carry. I am talking about also the people who check 100 percent 
of the baggage that goes into the cargoes, where damage can be 
done even more easily.
    It is going to be very important that the concept of 
fairness and equal treatment, that they feel that, because my 
own view is that one of the reasons that the average rate of 
their service was 3 months on a national basis was, one, they 
were not being paid anything, were not getting health benefits 
for the most part, but also that they were not being treated 
with respect. They did not really have any reason to have self-
esteem except as they felt they were doing their jobs or were 
told that they were not doing their jobs, either by the 
American public through its impatience or by the media or by 
us.
    So I would like to have a little bit of your philosophy 
about as these folks are selected, backgrounded, trained, put 
into position, watched, developed, etcetera, because these are 
people that we want for the longer term, that that is going to 
be done carefully, wisely, thoughtfully, and fairly.
    Mr. Magaw. Yes, Mr. Chairman. On a much smaller scale, but 
with the same degree of effect, I think, when I went to ATF, if 
one can just remember back to 1995 and 1993 and 1994 when they 
were getting so much criticism. They lost four agents there 
that day. They had 20 injured. They were looking at to be 
abandoned and torn up and put in other agencies.
    So I know how to treat people. I think people may say a 
number of things about me, but they will always say that I 
watch out that we are very fair for people, not only in terms 
of the individuals, but in terms of the whole workforce, 
diversity, and diversity through the entire ranks. You will 
find that at both the ATF and the Secret Service now.
    But at the same token, let me get specifically to this 
particular job. The airlines and the airline industry and the 
airports, they do not want to be working at that airport that 
is looked at as an unsafe airport. So their motivation is going 
to be there.
    You have given us some very good guidelines in the law in 
terms of who would be eligible to come into the category. As we 
go through that and as we select people and as we train people, 
we will keep all of those things in mind that you have just 
stated. If you select qualified people--and we can do that now 
with the pay that you have set up--you hire qualified people 
and you train them properly and then you continue to train 
them, so that there is no long period of time that they are not 
trained, and you have good solid oversight that is 
understanding, that is compassionate, that helps them with 
family situations; then they ought not to be on there that day, 
they can do something else.
    All of those kind of things have to be brought in to this 
plan, and I am very, very aware and always concerned with 
people issues. I will keep that in my thoughts as we go along.
    Having said that, those who do not meet the requirements or 
those what meet the requirements and then make mistakes that 
they should not be making, we will not allow that to continue.
    Senator Rockefeller. The background checks will be done by?
    Mr. Magaw. Well, we are going to have to see about that. I 
realize I should be saying on each one of these answers ``if 
confirmed.'' Can I stipulate that?
    Senator Rockefeller. Yes, that is included as the end of 
all of your answers.
    Mr. Magaw. Thank you, sir.
    Again, on a smaller scale, but the same principle will 
work, and I know it will, is that when I was in charge of the 
Secret Service's Washington Field Division we had something 
like 28 or 30 agents full-time, Secret Service agents, doing 
career backgrounds and all kind of background checks. So we 
came up with the idea of, why do we not take our retired cadre? 
There is a lot of them out there that would like to do this 
kind of work.
    We brought a group in, we trained them, and it came out 
magnificent. Most of the other Federal agencies now do that. So 
I would certainly use that process. There are also some very 
good private sector companies that do it.
    Now, while I have not specifically decided exactly how, it 
is clear that I know how to approach this problem once I 
understand a little bit more about the actual problem today. I 
was asked to come over just 2 weeks ago today to be interviewed 
and talk about this job, so I was trying to also carry on my 
FEMA responsibilities, at the same time getting all of the 
requirements that are necessary.
    But I will address that issue and we will not have long, 
drawn-out--for instance, it used to take an agent who would 
work on the background, because we would have them come off of 
that and stand post and do other things, they would sometimes 
be 5 or 6, 7 weeks getting a background done. The FBI is under 
the same circumstances, they have got so many things on their 
plate now.
    So we isolated that group, and not only did they want to 
turn out a good product to show that, hey, I can still 
contribute--and especially now after 9/11, they are all sitting 
out there saying, how can I help? Well, they can help this way.
    Not only did they turn out a good product, they arrived and 
found things that the other investigations sometimes did not 
find, because they took that other extra step. Almost always, 
they will have it back to you in 4 or 5 days. They will work 12 
or 14 hours a day to get it done. Now, if it has to be moved to 
another location because of a person living there--but still, 
you are not talking long periods of time here.
    Some of your security companies are branching off into this 
area and they are employing former Federal and State and local 
law enforcement. That is going to be another source. So we will 
look at all the sources.
    Senator Rockefeller. My time is up.
    Those who have on cellular phones, please turn them off or 
leave the hearing room.
    Under the early bird rule, Senator Wyden is next.
    Senator Wyden. Thank you very much, Mr. Chairman.
    Mr. Magaw, thank you for being willing to serve. I think it 
is one of the most important positions in government. Let me 
ask you a few questions that I think are very much on the mind 
of the public today. Obviously, you have got to begin the task 
of restoring confidence for the flying public. Communications 
is a major component of your job. What do you intend to do, not 
just to improve safety, but to let the American people know 
where this country stands with respect to security?
    Mr. Magaw. That also is one of the main concerns of 
Secretary Mineta and, although only for just a few minutes, we 
have discussed this issue. So I intend to not only bring the 
people within Transportation that the Secretary might identify, 
but to reach out to the airport personnel, the airline 
industry, the maritime industry, and all of the affected 
industries to get all the ideas that we possibly can about how 
to address the communications.
    The airlines have their own way of communicating. Now, what 
do we have to do in order to make sure that it gets to that 
airline and gets past there? What is it we have to do to make 
sure that it gets to the general public? One of the first 
things that I will do upon being confirmed is reach out and 
hire an outstanding public affairs, a highly qualified public 
affairs and communications person to help me do that.
    Senator Wyden. I mentioned the history of airline security. 
Again and again, the airline industry offers these arguments 
for extending the deadlines in the law. I would like to know 
whether you are going to seek to hold fast to the Act's 
timetable. We have already got requests for extensions, 
modifications of the deadlines and requirements. Tell us your 
position with respect to whether you are going to seek to hold 
fast to the deadlines and the time requirements laid out in the 
bill?
    Mr. Magaw. My answer to that, sir, is that we must meet 
those deadlines, and we will make every, every effort to meet 
them. One of the things that--and that is the thing that I 
think I have to address first--but we put together a chart, 
which each one of these columns represent a deadline and each 
one represents what is going to have to be done to meet that 
deadline, to include the one that was met yesterday.
    We did meet four deadlines yesterday. Transportation did; I 
did not. But I plan to make sure that we are following this on 
a minute by minute basis and I expect us to meet those 
deadlines.
    Obviously, there will probably be a hiccup somewhere along 
in there. I do not know where it is. I do not see it. So we are 
going to make every effort, working with this Committee and all 
the other entities of transportation, to make sure that we do 
meet those deadlines, sir.
    Senator Wyden. The first is key, and a lot of us are 
concerned about is on January 18th there is a requirement that 
all checked bags be screened. Secretary Mineta said that he did 
not think that that particular deadline could be met. Do you 
agree?
    Mr. Magaw. Secretary Mineta, I believe since that time, has 
taken the position that there are ways, by using all different 
aspects of checking bags, that this deadline can be met, and 
also taken the position that this is the first baggage 
deadline. The one that is also very, very important is the one 
that is a year, dealing with the companies that are 
manufacturing those machines now, to figure out how we can 
increase the manufacturing, can we do something with other 
companies to help get the production up, while at the same time 
the American ingenuity and the money that you have now placed 
in the marketplace will bring people into that marketplace that 
were not in there before.
    So I think when you look at all the capabilities here and 
the country who always responds when they are struggling, every 
company, every individual around the country, a lot of people 
with good ideas, we need to listen to all of them and get as 
much and the best technology as we can out there.
    Senator Wyden. What about the deadline for explosive 
detection systems for checked bags? This is obviously 
critically important to the public. This deadline is, the 
stipulation is that these systems have to be deployed and used 
throughout the Nation by December 31st, 2002. Do you have any 
questions about whether that deadline to make sure that bags 
are checked as relates to explosives would be met?
    Mr. Magaw. Well, I have questions, but I do not have 
doubts. I have questions because in this short period of time I 
have not understood the total problem. But it seems to me, with 
the money that you have put out there and with the companies 
who are now manufacturing them and the companies who have other 
technology on the horizon, they just did not have the money to 
build it, when we put all of those possibilities together and 
look at all the technology that is possible, I am confident 
that we can reach that goal.
    Senator Wyden. What priority do you place on air marshals? 
As you know, under the statute you are going to be responsible 
for training and deploying additional Federal air marshals. 
They are going to be required on every flight determined to be 
high risk. But the statute did not stipulate a specific time 
line for this provision.
    How fast do you think that this country can get where you 
want us to be on the air marshal issue?
    Mr. Magaw. This can go and is going very, very fast.
    There are again a number of agencies out there right now 
that are lending us agents, as they did in 1972. I worked in 
that program in 1972 and of course that was all foreign 
carriers.
    This, though, you take DEA, you take the U.S. Marshals, you 
take ATF, Secret Service, FBI.
    All the different investigative units--there are many, many 
more--are providing agents to fly on those aircraft now. They 
are going through an additional training. If they have had 
their basic and they are already operating Federal agents, we 
can do the training in approximately 2 weeks. That is being 
done as we speak, and the Federal Law Enforcement Training 
Center has been very, very helpful in doing this. So they are 
going to come on very fast.
    The ones that are on there now, those agencies have said: 
You know, this is a time of war; we are going to help as long a 
we need to, if it is 6 months, if it is 8 months, if it is 12 
months.
    There is a huge number of applications and most all of them 
have law enforcement background. So in order to ramp up and get 
us to that point, we are going to use an awful lot of law 
enforcement prepared people already and at the same time start 
bringing in those that will have to have the 6 or 8 or 10-week 
training that are new. So the combination of both of those, 
plus the agencies being very helpful in assigning their 
personnel to this program.
    Senator Wyden. Mr. Chairman, I know my light is on.
    Senator Rockefeller. Thank you very much, Senator.
    Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    I have a couple of questions, but I wanted to follow up on 
the train of thought of air marshals, and ask if you would look 
at the age deadline. You mentioned that you have a number of 
applications, most with law enforcement experience, which I 
think is terrific because you will not have to do training from 
scratch.
    It is also my hope that in the future, you could have air 
marshals come from your own system, perhaps people who start as 
screeners. Hopefully, you could attract a better quality of 
person to go into the entry level knowing there is going to be 
something beyond that, such as supervisory capabilities and 
then air marshals.
    However, there is an age limit of 35, I think, in the bill 
for the air marshal position, with an exemption for retired law 
enforcement and military with certain number of years. Do you 
think that is enough of an exemption, because there would be 
many people, I am sure, at the age of 40 or 45 who could do a 
great job as an air marshal? Have you looked at that enough to 
know if we would need to change that requirement?
    Mr. Magaw. From my past experience both in the Secret 
Service and also being familiar with the air marshal program in 
1972, there are a number of studies, Senator, that say beyond 
the age of 40 and 45, certainly 50, you get to the point where 
you are in terrific shape, but you are just not what you were 
earlier on.
    So we have really got to look at that.
    Senator Hutchison. Be careful.
    Mr. Magaw. Well, I am 66. But at any rate, I could not be 
an air marshal today. I know my reactions are not quick enough. 
I know that my young thinking would not be young enough to move 
forward.
    But at any rate, in answer to your question, we do need to 
watch that. While a lot of them coming in are going to be in 
that 40, 35 to 50 category, what happens to them after they are 
in for 5 years? Because what you have said is very, very 
important. We started a program in ATF that we wanted to try to 
make everybody look at their career. We have stay-in schools. 
They came in as stay-in schools, some of them under hardship 
cases in low income areas, that are now agents, that are now 
inspectors.
    So that career track is very important to me, and 
especially in a job like this, because this job, if you do not 
rotate them from their positions very often during the day, you 
do not give them periodic training--I mean almost weekly at 
least sit down and talk to them about issues--it becomes a very 
static kind of an employment. So we do want to have the career 
track and we do want to make sure that we are very careful and 
monitor how they are reacting, how they are functioning.
    There is going to have to be a very good psychological unit 
with the air marshal program, because flying 10 hours a day 4 
days a week or 8 hours a day 5 days a week, you can imagine 
what that could cause. So we want to be very careful with that.
    Senator Hutchison. Well, I appreciate that and I hope you 
will keep in mind that I am certainly willing to change the law 
if we need it on the 35 age. I agree totally with your concept, 
which has been my concept, that if you can bring people in at 
the ground level with screening and establish a career track, 
that would probably be the best if you have enough available 
people.
    Let me just ask you, though, if you have the screening job, 
which is even, I think, more prone to burnout, could you also 
assess how the best way to do this at some rotation and some 
use of personnel--for instance, if a person is an air marshal 
and flies a round trip and has only worked maybe 4 or 5 hours, 
maybe rotating them into supervisory jobs or screening jobs, 
just to break up the day, and have the screeners then be able 
to do something else.
    I am not even asking you to comment on that right now, but 
to look at that as you are deciding how it is best to keep the 
screeners sharp and the air marshals sharp during a day where 
you are doing the same thing. I hope there is an opportunity to 
be creative in the rotation for that purpose.
    I just want to ask you another question concerning the need 
for the freedom to fire. One of the big sticking points in the 
bill as we were writing it was whether we had enough capability 
to fire on the spot someone who was letting down on the job, 
especially in the screening position. Do you think the bill 
gives you the flexibility to fire at will, and do you think 
that the treatment of these screeners as security personnel, 
and therefore putting them in a different category from civil 
service personnel, was done correctly in the bill?
    Mr. Magaw. We will have to see. I am not a personnel 
specialist, but I will reach out and hire the best personnel 
specialists that I can find, both from the private industry and 
also the Federal industry. You have given what appears to me in 
the bill a very wide leeway. What I want to make sure is that 
in none of this enormous jurisdiction and responsibility that I 
take that lightly. I want to make sure that, since you have 
given us this authority, that we guard it very closely.
    But I want to look at how we can do this. It has to be a 
force the is accountable, that is efficient, and if they cannot 
function or continually make mistakes we just cannot keep them 
in the system.
    Senator Hutchison. Well, I know my time is up. Let me just 
say that we knew when we passed this very comprehensive piece 
of legislation that there might be a need for some fine-tuning 
after we were up and running. I hope that you will come to us 
after you have been in office for 9 months or so and tell us 
where you need the technical corrections that would give you 
the ability to do your job better. I think that is going to be 
essential.
    Thank you.
    Mr. Magaw. Thank you so much.
    Senator Hutchison. Thank you, Mr. Chairman.
    Senator Wyden [presiding]. Thank you, Senator Hutchison.
    Here is where we are at this point, Mr. Magaw. You have 
said in response to a question I asked earlier that you are 
going to hold fast to the deadlines and timetables in the 
Airline Security Act. I am obviously, and I think my colleagues 
are, looking for dogged determination on that point. I am going 
to ask some additional questions with respect to some of the 
deadlines and timetables and parts of the Act.
    But Senator Specter is under a very tight timeline and 
managing a bill on the floor, so I am going to recognize him at 
this time.
    Senator Specter. Well, thank you. Thank you very much, Mr. 
Chairman. I am the manager for the Republicans on the 
conference report of the appropriation bill on Labor, Health, 
Human Services, and Education, so I appreciate your courtesy in 
permitting me to question at this time.
    Mr. Magaw, in my opening statement, I summarized what had 
happened with Alcohol, Tobacco and Firearms on having entrapped 
Randy Weaver by going to him and asking him to find sawed-off 
shotguns, which was a violation of law, but the initiative was 
taken by the Alcohol, Tobacco and Firearms agent. The law on 
entrapment is when the idea originates with the law enforcement 
officer that is entrapment. That was found by the jury.
    Then they sought to turn him to an informant because they 
had--ATF--had lost its informant. When he refused, he was 
indicted. He was not notified of the hearing date, and then ATF 
informed the U.S. Attorney that Weaver was a suspect in bank 
robbery cases and had convictions. In the hearing Mr. Byerly, 
who was the ATF agent, said he did not remember clarifying that 
with the U.S. Attorney.
    Then the marshals went to arrest Randy Weaver. There was a 
gunfight. Deputy Marshal Deagan was killed. Sammy Weaver, Randy 
Weaver's 14-year-old son, was killed. They brought the hostage 
rescue team in from the FBI, the sharpshooters, and during the 
course of that incident Randy Weaver's wife Vicky was killed.
    During the course of the hearings, the subcommittee which I 
chaired, a subcommittee of Judiciary, concluded that there was 
egregious wrongful conduct by both Alcohol, Tobacco and 
Firearms and the FBI. FBI Director Louis Freeh conceded that 
there was an unconstitutional use of deadly force and changed 
the rules of engagement.
    As I noted earlier, I saw your nomination for this 
important position and did not want to hold up the 
Administration on moving ahead here, so I acted very promptly 
to notify Secretary Mineta, of my concerns and sat down with 
you with Senator Craig for more than an hour the day before 
yesterday, because I am concerned about your judgment, Mr. 
Magaw, your judgment on handling an important matter like this.
    You started your testimony, your written statement before 
the Judiciary Subcommittee back in 1995, saying: ``After 
reviewing the actions of special agents regarding''--and let me 
also add that you had told us in the hearing, Senator Craig and 
me, the Alcohol, Tobacco and Firearms had made very substantial 
changes under your leadership. I then questioned why the 
subcommittee was not informed about that congressional 
oversight. It is very important that when changes are made and 
there is a mistake that it be acknowledged publicly so that 
Americans know what is going on and so that Randy Weaver would 
know.
    My view was that an apology was in order for Randy Weaver. 
He was no saint, but he did not deserve that armada to come 
storm the hill and have the gunfights which resulted in the 
deaths of two members of his family and the marshal. Weaver 
said at the conclusion of the hearings, had he known that he 
would have been treated so well by the Senate Committee he 
would have come down off the hill.
    We have not gotten much documentation, I might say, Mr. 
Magaw. We have one extract of a report which shows some changes 
you made, but only one reference to Ruby Ridge. If there is 
more I would like to see it.
    But, coming back to my question, your prepared statement 
said: ``After reviewing the actions of special agents regarding 
Mr. Weaver in a complete review on my part, I am convinced that 
our agents' conduct was lawful and proper in every respect.'' 
Is it your judgment today that their conduct was ``proper in 
every respect''?
    Mr. Magaw. Senator, we have been over this topic many, many 
times. Let me, if I could, address it in a little bit of 
detail. What everyone needs to understand is that I was not at 
ATF when Ruby Ridge occurred. I came there partly as a result 
of Ruby Ridge and also as a part of Waco. When I came, I saw 
the kinds of things that needed to be repaired. One was trying 
to get the employees back on their feet and looking at the 
structure and looking at everything that we have done.
    The court clearly, Senator Specter, did rule that it was 
entrapment. When that court ruled that it was entrapment, we 
changed our procedures so that some of these things would not 
happen again.
    As far as the congressional oversight, my apologies 
certainly for not coming to the Judiciary Committee, but at 
that time my responsibility I felt was to the Appropriations 
Committee, both the Treasury and Postal Service Committees, 
both in the House and the Senate. As we went along over the 
next 6 years, we reported to them all the time. They know the 
training changes, they know the recruitment changes, they know 
the kind of things that ATF was doing, and moved heavily toward 
training.
    One of the problems with all the shortcomings that we are 
talking about in these very unsettling incidents that occurred 
were primarily lack of training. So all of those things as we 
went through it were changed, and I did report to those 
Committees. In fact, when I went there their budget was 
something like $284 million. Now it is almost a billion or a 
little bit over.
    So I did everything that I could do to not only support 
them as they recovered, but correct them as we went along. So I 
would answer it in that way, sir.
    Senator Specter. Mr. Magaw, you accurately state that it 
was not your watch in 1992 when this happened, Randy Weaver, 
just as it was not on Director Freeh's watch of the FBI. He was 
not appointed until 1993. Now, I am on the Appropriations 
Committee and was at the time you reference, but it was never 
called to my attention that you had made these changes. When 
you have an oversight committee, obviously there is a lot of 
overlap in the Congress, and these were very extended hearings, 
lasted months. A 150-page report was filed, notes of testimony 
in a thick volume. This was the oversight committee that you 
had a duty to come back and report to.
    But I want to pursue further what you did. If there is 
further documentation beyond the single sheet which you have 
given me or the couple of sheets with only one reference to 
Ruby Ridge, I would like to have it. I want to be in a position 
to vote on you today if the Committee moves forward. I do not 
know if the Committee will or not, but I want to be very 
diligent and very prompt in concluding my part of this matter, 
my evaluation as to your judgment.
    I appreciated the last answer you gave, Mr. Magaw, but you 
did not quite come to grips with my question. This was not your 
Alcohol, Tobacco and Firearms unit in 1992, but you came in 
and, in the context of this what I considered egregious, 
reprehensible conduct, you said that it was ``proper in every 
respect.'' My question to you that I asked you before, that I 
repeat, is: Is it your judgment today that it was ``proper in 
every respect''?
    Mr. Magaw. As we looked at it closer, Senator, we found a 
number of mistakes in the investigation and in the 
understanding of how some of these investigations should be 
worked, and we made those corrections.
    Senator Specter. OK. I think that is very important to 
acknowledge, Mr. Magaw, because you are being considered for a 
very, very important position and there are a lot of people who 
are still concerned about what happened at Ruby Ridge. I think 
it is very important that your judgment today is not that it 
was proper in every respect. I think that is something which is 
very, very important. I thank you, Mr. Magaw.
    I thank you, Mr. Chairman.
    Senator Wyden. Thank you.
    Mr. Magaw. Mr. Chairman, can I just make one statement?
    In 40 years in law enforcement both at the State level and 
the Federal level, nobody is more concerned about what happened 
that day or at Waco, not only the loss of life, but the injury 
to those who are still alive. I have carried that with me in 
everything that I did at ATF, and it shows.
    Senator Specter. Mr. Chairman, I appreciate that last 
statement. I do not have 40 years in law enforcement, but I 
have a fair sized record there myself, and there are tremendous 
problems about governmental misconduct and law enforcement 
misconduct. This is something that I faced day in and day out 
in the turbulent decade of the 1960s and 1970s when I was the 
district attorney of Philadelphia.
    Where you have recurrent activities, but where you have the 
FBI, which is the model of law enforcement, it seems to me very 
important as a signal to every law enforcement officer in 
America who uses deadly force that that concession be made, and 
where you had the activities of Alcohol, Tobacco and Firearms, 
which is not as well known obviously as the FBI, but a very 
important agency, highly respected and looked to.
    When you talk about the funding, I wrote the Armed Career 
Criminal bill which was passed in 1984, which provides for life 
sentences for career criminals who are caught carrying 
firearms. That brought the first wave of funding to ATF. ATF 
was funded at a very low level, but Alcohol, Tobacco and 
Firearms had the responsibility for enforcing the Armed Career 
Criminal bill. So that it was especially of concern to me when 
I saw this Ruby Ridge conduct.
    But I am glad we got the record straight today.
    Thank you, Mr. Magaw.
    Senator Wyden. I thank my colleague and appreciate his long 
interest in law enforcement. As to your House sponsor of the 
Armed Career Criminal law, I am glad you mentioned that. I 
appreciate it.
    Senator Specter. Good teamwork.
    Senator Wyden. Let me ask you now, Mr. Magaw. There is a 
15-year history of backsliding on airline security. Again and 
again, the Congress has sought to actually get these rules 
implemented, get them in place. They always get watered down 
and whittled down. Why do you think that happened again and 
again over the last 15 years?
    Mr. Magaw. Well, this would strictly be a judgment on my 
part here from looking at it as a citizen might. But it is a 
case where money would be placed in the effort, but then be 
moved someplace else. It was one that did not get the attention 
that it is getting today, and probably would not be getting the 
attention today if 9/11 did not happen.
    We did not as a country and as law enforcement, we did not 
focus on these risks. Almost like Pearl Harbor, we did not 
realize. Although we knew the threat was out there, we did not 
focus on it. I think it was lack of focus, and there is no lack 
of focus now.
    Senator Wyden. I appreciate your sincerity. I think there 
was more to it than that. There was an enormous amount of 
lobbying and public pressure by powerful interests. You have 
basically told us today that you are going to stand up to them, 
that you are going to make sure that this law is adhered to. 
That is something we feel very strongly about.
    Now let me ask you some more about the deadlines with 
respect to some of these provisions that are so important. The 
Act stipulates that the deadline for deployment of Federal 
screening personnel at all airports is 1 year from enactment. A 
training program for security screening personnel has to be in 
place within 60 days. Do you have any concerns about these 
deadlines?
    Mr. Magaw. No, sir, and it is my understanding that within 
the next day or 2 that process is going to get well under way. 
I do not know it in detail because I should not until 
confirmed, but my understanding is that the plan is there and 
it is going to be successful.
    Senator Wyden. Under the statute, you are responsible for 
establishing procedures for security screening of people 
providing ground services for airlines, such as catering, and 
supplies they put on board. How long do you expect that this is 
going to take and how do you plan to pursue implementing that?
    Mr. Magaw. Some of that is being done right now. In fact, 
most of the airports do some of that. It just needs a little 
closer oversight. Those meals, once they are prepared, as I 
understand it, are sealed into containers, taken by a 
particular driver to that particular flight, unloaded, the 
seals are checked to make sure that none of them have been 
altered.
    Now, it seems to me that in that process there needs to be 
people making sure that that is consistent across the board. 
But I do not know enough about it to really go much deeper than 
that, but I will.
    Senator Wyden. Well, when you say that there needs to be 
clearer oversight--because that seems to me to be a real 
vulnerability. That was something that the Congress was 
concerned about. What do you mean when you say there ought to 
be clearer oversight in that area?
    Mr. Magaw. Well, we are going to--as you know by the bill, 
we are going to go and hire a security person in charge of 
every airport at a fairly high level and with fairly good 
experience. We are going to put some more Federal law 
enforcement personnel, TSA personnel, in there to not only 
oversee the screeners, but oversee the procedures that you are 
talking about to make sure that the loopholes are filled in.
    In terms of sometimes, you know, when you go through a 
checkpoint, somebody punches a number in there, they go through 
there in a hurry, the door takes a long time to close, it 
sometimes is fairly easy to violate that. We want to look at 
all of those areas and be helpful to get those closed down.
    Senator Wyden. Now, the statute sets a deadline of 90 days 
after enactment to implement an aviation security program for 
charter air carriers with large aircraft. Do you have any 
concerns about meeting this deadline?
    Mr. Magaw. I really have not addressed that issue, Mr. 
Chairman What I certainly can do is address that issue in the 
very first days and get back to you with the proper answer to 
that, sir.
    Senator Wyden. Now, you told me that you are going to stick 
closely to the timetables and deadlines in the statute. But 
there are places where the Act gives you some authority to 
provide waivers or extensions. Can you pledge today that you 
are going to use those provisions sparingly and only as a last 
resort?
    Mr. Magaw. My goal is to use those sparingly, using them 
only as a last resort. My further goal is to beat those 
deadlines by a few days if we can.
    Senator Wyden. On the discretion point, you do have 
considerable discretion in areas such as promoting enhanced 
security measures. The Secretary, for example, can look at 
biometric imprints, this sort of thing. Could you tell us how 
you plan to use your discretion in that area and, given the 
fact that you do have some discretion in some of these areas, 
what would be your priorities with respect to those powers 
granted you?
    Mr. Magaw. What I had planned to do in this case would be 
make a statement--and I am not sure the exact terminology, but 
make a statement of work or make a statement of what the 
product needs to do, and then look at all the response, because 
it is everything from retina to fingerprints to all kinds of 
different technologies out there. So rather than setting on one 
kind of technology, let us look at all of them and see what 
applies best in the airports and the other areas where we have 
particular problems.
    Not every airport is going to be exactly the same. So I 
want to have that flexibility, but I also want to be able to 
look at everything that is available out there.
    Senator Wyden. We would like to know your view on how 
technology can help promote aviation security as well. You 
know, the statute contains a number of provisions on research 
and development with respect to technology. I chair the 
subcommittee here on science and technology. The evidence is 
very clear that the people who threaten this country are not 
technological simpletons. These are people who are very savvy 
at the use of technology.
    I think it was the view of the sponsors of those provisions 
that we would find ways to incorporate new technologies in 
order to get out in front of those who threaten this country's 
security.
    Tell us your view of the role that technology can play in 
aviation security and particularly how you are going to get 
from the private sector state-of-the-art products and 
innovations in order to promote security at our airports?
    Mr. Magaw. Technology is absolutely essential. We cannot 
meet these deadlines nor can we prepare the American public to 
be as safe as possible without technology. So that is what I 
want to look at, and I want to do everything we can to generate 
the spirit of the inventor out there. Those who have had 
technology that they have been looking at, they have not had 
the funds to carry it forward.
    So I want to make sure that technology is at the highest 
level as we move forward. Once we get caught up, then we have 
got to have a replacement system, we have got to have systems 
that put new quirks in the system that will pick up the kind of 
things to stay ahead.
    Senator Wyden. So you are willing to be the point person as 
it relates to technology that can promote aviation security? 
Because I know many companies constantly contact myself and 
other members of this Committee with ideas and suggestions. 
Now, as a result of your statement we can say that those people 
can be in touch with you.
    Mr. Magaw. That is again one of the very first things that 
I am going to do, is to hire the best technology people that I 
can, so that they can spend full time, and as those requests 
come to me that we will have them constantly working on them. 
Bottom line is, though, I will be the one responsible.
    Senator Wyden. Let me ask you a question, if I might, about 
rural airports. Chairman Rockefeller in particular has led this 
Committee on this issue. Senator Dorgan, myself, and others 
have tried to assist. But there is a great deal of concern 
among the rural airports of this country that they are not 
going to have the money to get the job done, and we want to 
make sure that citizens in more rural areas continue to have 
air service and, of course, that they are secure at the same 
time.
    How do you intend to work with the rural communities across 
this country to help them deal with the new security issues?
    Mr. Magaw. Well, as Chairman Rockefeller had mentioned, the 
traveling public, whether it is the smallest airport in the 
country or the largest, it has to be addressed at each level. 
That is why it is very important to me to get a Federal 
security director in every airport and then make sure we are 
looking at every airport and doing the very best we can to give 
them the first class security.
    For instance, some of the airports, if you have the 300-
foot rule for parking you take all their parking away. They 
would just have none. So what can we do in terms of technology, 
shields, and some of those kinds of things, deflectors? What 
can we do to allow them to use that parking and not have the 
long offset? Are there things we can do? If there are not, can 
we financially help them to move their parking lot a little 
bit?
    But the big thing is take each airport, each concern, and 
make it work the best under their circumstances. That will be 
the first responsibility of those Federal security directors.
    Senator Wyden. Mr. Magaw, I do not have any additional 
questions. In effect, in this position you are something akin 
to the air marshal in chief. The job you have got is one of the 
most important positions in government. That is why the 
exceptional tenure was granted.
    I think the fact of the matter is, even though progress has 
been made in recent months, there are significant 
vulnerabilities with respect to airline security today. There 
are vulnerabilities today that have to be dealt with. My 
colleagues outlined a number of those.
    You do not have much time. There are a lot of agencies 
where people can take a bit of extra time to get settled in, 
but it has been noted that a year from now you have really got 
to have in place a long enforcement operation that I think from 
a simple numbers standpoint is bigger than the FBI and the Drug 
Enforcement Agency combined.
    So we wish you well. I think you know that this Committee, 
Senators on both sides of the aisle, are going to watch your 
office and the implementation of this law very, very closely. I 
can tell you, having studied the record of the last 15 years 
and looking specifically at the pattern, which is always the 
same--there is a horrible tragedy, that is the first thing that 
happens; huge public outcry; the Congress moves, there are 
recommendations made on airline security; and then again and 
again and again, there is slow motion implementation and it all 
gets whittled down and watered down and very often becomes a 
lawyers' full employment program as there is this huge fight in 
various agencies.
    Our message to you is this time it has got to be different. 
This time it is going to be essential that you stay at it until 
the job is done. Senators of both political parties, led by 
Senators Rockefeller and Hutchison, are going to insist on it.
    I want to give you the chance to have the last word. When 
you told me that you were going to adhere to those timetables 
and that you would seek to use very sparingly any possibility 
of deviating from those timetables, that was what I wanted to 
hear. You are going to have my vote both in the Committee and 
on the floor of the U.S. Senate.
    I will tell you, I came in today wanting to clarify your 
position on a number of these key issues with respect to 
deadlines. Our papers, as you know, are filled every day with 
the lobbying efforts of some to try to water those deadlines 
down. You have told us that you are not going to give in to 
those efforts, the efforts to implore you to make changes, and 
I appreciate that.
    Would you like to say anything else, or we will adjourn?
    Mr. Magaw. No, sir. I will move forward with the things 
that you just mentioned in front of my mind. Thank you.
    Senator Wyden. We wish you well.
    The hearing is adjourned.
    [Whereupon, at 11:13 a.m., the hearing was adjourned.]
                            A P P E N D I X

             Answers to Questions from Senator John McCain
    Question 1. While aviation security will be the focus of your 
immediate attention upon confirmation as Under Secretary of 
Transportation Security, I am confident you recognize the scope of this 
new position will entail focusing on all modes of transportation. As 
you may know, this Committee has been working to pass Port Security 
legislation, as well as Rail Security legislation, and next year we 
will be considering bus security legislation and other issues.
    In your opinion, what mode or aspect of our Nation's transportation 
system is the most vulnerable to terrorist attack and what action would 
you propose the Department of Transportation (DOT) take to decrease 
that vulnerability?
    Answer: Clearly the aviation system is at the top of the list and I 
believe we have covered elsewhere our plans to decrease vulnerabilities 
in aviation. However, terrorists can strike anywhere so can be no 
static ranking of threat by mode of transportation. The terrorist 
threat is greatest where terrorists believe they have the highest 
likelihood of success, however they define success. Therefore our 
approach to transportation security has to cover all aspects of our 
transportation network. We are looking at the individual pieces of the 
network as well as those, like information systems, that cross modal 
boundaries.
    Question 2. The U.S. Coast Guard, which is part of DOT, plays a 
vital role in the security of our Nation's seaports. It is my hope the 
Senate will soon pass S. 1214, the Port and Maritime Security Act of 
2001, which, if enacted, would give the Coast Guard additional 
authority and authorize funding to address identified seaport security 
needs. Unfortunately, for the third year in a row, the Senate has been 
unable to pass other legislation to authorize the basic needs of the 
Coast Guard due to disagreements over a matter that is unrelated to the 
Coast Guard or its operations.
    (a) Do you believe the lack of an authorization is having an impact 
on the Coast Guard's ability to provide for our Nation's seaport 
security? How will the lack of an authorization effect future Coast 
Guard operations relating to seaport security?
    (b) Do you believe that legislation intended to increase the level 
of security at our Nation's seaports should be linked to 
reauthorization of the U.S. Coast Guard?
    Answer: On December 20, 2001, the House passed H.R. 3507, its 
version of a Coast Guard Authorization Act. H.R. 3507 contains a number 
of Coast Guard-sponsored issues that deal with a broad range of Coast 
Guard administrative and operational programs. Enactment of these 
provisions will enhance the Coast Guard's ability to effectively 
support and manage its workforce to respond to changes in its 
responsibilities.
    I do not believe that enactment of the Coast Guard's 
reauthorization needs to be linked directly to port security 
legislation. The Department of Transportation strongly supports S. 
1214, the Port and Maritime Security Act passed by the Senate on 
December 20, 2001, and appreciates the Committee's willingness to 
consider the Department's views on that important piece of legislation. 
S. 1214 provides a comprehensive approach to enhance the security of 
U.S. ports. Although it is not necessary to link S. 1214 directly to 
the Coast Guard's reauthorization, the Department also considers 
enactment of a Coast Guard Authorization Act to be one of its top 
legislative priorities. As discussed above, reauthorization of the 
Coast Guard, if accompanied by corresponding appropriations, will not 
only provide the Coast Guard with resources, but will also provide it 
the necessary authority to support and manage its workforce.
    Question 3. Do you believe the Integrated Deepwater System, as 
would be authorized in the pending Coast Guard reauthorization 
legislation, will be a critical component in the Department of 
Transportation's efforts to prevent potential threats from reaching our 
shores?
    Answer: Absolutely. The Integrated Deepwater System (IDS) is 
critical to continuing the Coast Guard's ability to identify, deter, 
and when necessary, intercept and eliminate threats as far from our 
homeland as possible, before they can directly threaten our security 
and safety.
    Strengthening maritime security requires an effective awareness of 
all activities (i.e. vessel transits, fishing activities, pollution 
incidents, emergencies at sea and illegal activities) within the 
maritime domain. This requires integrating surface assets, support 
aircraft and other systems. With timely information, the Coast Guard 
will have improved ability to quickly identify a threat and guide an 
asset to intercept it, giving the Coast Guard and our law enforcement 
and military partners time to react before it becomes a direct threat. 
Dispersed, interconnected assets are key to surveillance, detection and 
prosecution.
    Although the IDS will vary based on the winning contractor's 
solution, awareness can be achieved by numerous means including 
unmanned aerial vehicles, maritime patrol aircraft, data links between 
netted forces, and shipboard sensors such as air- and surface-search 
radars and passive electronic surveillance systems--all potential parts 
of the IDS. Additionally, Deepwater cutters and aircraft perform a 
``community policing'' function within the maritime domain. ``Cops on 
the beat'' not only deter, but also play a critical role in identifying 
anomalies. Deepwater assets will be highly mobile and flexible, 
allowing the Coast Guard to respond with agility, speed and maximum 
effectiveness. They can also remain on-scene for extended periods, 
providing a command and control presence until the situation is 
stabilized or resolved. The IDS continues to be a near term national 
priority.
    Question 4. The U.S. Maritime Administration (MARAD) is the modal 
administration for our Nation's Merchant Marines. Currently, MARAD has 
no defined role in securing our Nation's waterways, although it is 
responsible for promoting U.S. maritime commerce worldwide. What role 
do you envision for the U.S. Maritime Administration in relation to 
ensuring the safety and security of our Nation's transportation system?
    Answer: MARAD has a significant role to play in the area of port 
security. MARAD is the Federal agency that has responsibility for the 
promotion of the U.S. commercial maritime industry, and is statutorily 
responsible for providing DOD with access to port facilities, as well 
as providing for the commercial carriage of defense needs, during 
mobilization. This activity requires ongoing planning and coordination 
in order to be fully ready for any contingency. This responsibility was 
put in the Department of Transportation to make sure that the Nation's 
defense and the commercial carriage of trade were balanced in the 
interest of the security of the Nation.
    MARAD also has other roles in working with the ports and the 
connecting intermodal transportation modes in order to promote 
efficient, effective, and secure commercial ports. They include such 
varied activities as port security training in Latin America, cargo 
tracking and more efficient cargo movement projects, and training of 
maritime personnel in security issues.
    MARAD's commercial knowledge and expertise are important assets for 
the TSA. TSA will look to MARAD's expertise for determinations on grant 
monies, port security vulnerability assessments and on a range of 
issues essential to the development and implementation of national port 
security strategy. MARAD has a long history of policy support and 
technical assistance to the commercial Marine Transportation System and 
its stakeholders. This has included the administration of cooperative 
agreements, including research. I expect MARAD to continue to play a 
major role in that area. MARAD also can continue to produce research 
reports and strategic planning guides to improve port security 
operations and continue its international engagement on foreign port 
security issues.
    In conclusion, MARAD is a very important member of the DOT team 
that is looking at the U.S. maritime commerce worldwide. They will 
continue to be part of the total team effort that DOT is currently 
using to address the transportation security issues.
    Question 5. MARAD administers the War Risk Insurance Program 
authorized under Title XII of the Merchant Marine Act of 1936, which 
was created to ensure the availability of adequate insurance for 
vessels engaged in the waterborne commerce of the United States. In 
your opinion, and in light of newly identified threats facing U.S. 
interests worldwide, what changes or additions, if any, do you believe 
need to be made to this program to ensure the availability of adequate 
insurance and more importantly, ensure that U.S. commerce is not 
unnecessarily interrupted because carriers engaged in waterborne 
commerce cannot find adequate and affordable insurance for their 
vessels?
    Answer: Title XII of the Merchant Marine Act, 1936, provides the 
Secretary with sufficient authority to ensure the availability of 
adequate insurance for vessels engaged in the waterborne commerce of 
the United States. Title XII sets forth the authority to provide 
coverage for vessels, their cargoes, crews, and third party liabilities 
against war risks, including acts of terrorism, if commercial insurance 
is not available on reasonable terms and conditions. This insurance may 
be made available to both U.S. and foreign flag vessels.
    Question 6. In an effort to address jurisdictional concerns raised 
by the Judiciary Committee and enable Senate passage of S. 1214, the 
Port and Maritime Security Act of 2001, before the close of the first 
session of this Congress, Chairman Hollings and I reluctantly agreed to 
drop several provisions in the managers' substitute. These provisions 
were requested by the Department of Transportation and would have 
created Federal criminal and civil penalties for several acts relating 
to port and maritime crimes. Additionally, the provisions would have 
made several crimes at ports and on our Nation's waterways Federal 
offences.
    (a) Do you believe passage of port security legislation without 
these provisions would seriously impact the Department of 
Transportation's ability to ensure the security and safety of our 
Nation's seaports?
    (b) If so, will you, if confirmed as Under Secretary for 
Transportation Security, commit to working with this Committee and the 
Judiciary Committee to ensure the provisions that were removed from the 
bill at the insistence of the Judiciary Committee are included in port 
security legislation before such a measure is sent to the President for 
his signature?
    Answer: The Department of Transportation strongly supports 
inclusion of the criminal provisions in the Port and Maritime Security 
Act, and appreciates the Committee's willingness to consider the 
Department's views on this important piece of legislation. As passed by 
the Senate, S. 1214 provides a number of tools to improve the security 
of our Nation's ports and waterways. It provides a framework for the 
development of port security response plans at the local, regional, and 
national levels, and promotes maritime security in a number of critical 
ways. It is a very positive step. Therefore, I am reluctant to 
recommend an ``all or nothing'' approach concerning inclusion of the 
criminal provisions. However, the Department also believes that the 
criminal provisions are a key component of a comprehensive approach to 
maritime security. Enactment of the criminal provisions will 
significantly enhance the Federal Government's authority to investigate 
threats against our maritime security and prosecute those responsible, 
and the Department of Transportation will continue to strongly support 
enactment of those provisions.
    I look forward to working with the Congress toward enactment of the 
maritime security criminal provisions.
    Question 7. There is a growing concern over the issues surrounding 
personnel fatigue at Coast Guard search and rescue facilities, as 
brought to our attention by the Department of Transportation Inspector 
General's Office (DOT-IG) and the National Transportation Safety Board 
(NTSB) in their reports relating to the sinking of the sailing vessel 
Morning Dew. The Coast Guard's standards governing watch standing 
provides for an individual to be on duty no more than 12 hours in a 24 
hour period at Coast Guard search and rescue center facilities.
    I understand the House of Representatives is seeking to pass a 
Coast Guard reauthorization measure, H.R. 3507, which includes a 
provision that would codify the12 hour limit in a 24 hour period. While 
all of us take very seriously the issue of fatigue and its impact on 
transportation safety, I am concerned one of the real contributors to 
fatigue affecting Coast Guard personnel may be a lack of sufficient 
resources to hire and train the level of staff necessary to maintaining 
a presence at all search and rescue stations while complying with the 
duty time standards. Further, I am concerned that this standard, if 
codified, could adversely impact the Coast Guard and degrade safety and 
security at our Nation's seaports.
    (a) Can you tell us how many Coast Guard search and rescue center 
facilities currently do not meet the 12 hour limit in a 24 hour period 
standard for personnel standing watch duty?
    (b) Why, specifically, are these facilities not meeting this 
standard?
    (c) What legal liability issues would be created by making the 12 
hour standard a statutory requirement?
    (d) If this legislation is enacted, how many additional personnel 
would be needed for the Coast Guard to meet this standard and what 
would the impact be on safety and security if these personnel were not 
provided?
    (e) Without additional resources, how would the Coast Guard be able 
to meet this standard? Would the Coast Guard pull these personnel from 
other locations to meet this standard?
    Answer: The Coast Guard has advised me that: (a): There are 
currently 9 District Offices, 2 Sections, and 41 Activities/Groups that 
have search and rescue center facilities. Of that number, 1 District 
Command Center is standing 12-hour watches, 1 Section is standing 12-
hour watches, and 13 Group/Activities are standing 12-hour watches. The 
remaining units are operating on a waiver granted by the Commandant of 
the Coast Guard to allow them to continue to stand the 24-hour watch 
until we can provide the requisite personnel to shift to the 12-hour 
standard.
    (b): The minimum requirement to staff the 12-hour watch standard is 
1 supervisor and 5 watchstanders per operations center. It must be 
noted that this number is not optimal and assumes that all billets are 
actually filled, that all assigned personnel are trained and qualified, 
and that at no time is there more than one watch stander absent due to 
leave periods, illness, offsite training requirements and other 
absences. The optimal number would be 7 watchstanders plus 1 
supervisor. The reason that many of our facilities are not meeting this 
standard is that they do not have the billets in place to provide the 
required number of personnel to stand a 12-hour watch.
    (c): The Department is concerned that a statutory 12-hour watch 
limit will raise significant legal liability issues. Current law (14 
U.S.C. 88) gives the Coast Guard broad authority to perform search and 
rescue but imposes no specific requirements. This provides the Coast 
Guard with the necessary discretion to allocate its scarce resources. 
Sadly, despite the Coast Guard's efforts, not every search and rescue 
case is successful, and some cases result in litigation challenging the 
Coast Guard's decisions during the case. The Federal Tort Claims Act 
includes a ``discretionary function'' exemption which limits judicial 
review of the Coast Guard's organization, resource allocation, and 
workforce management. Courts have implied similar immunity in the Suits 
in Admiralty Act. If the 12-hour watch limit is statutorily imposed, a 
court could view that statute as removing the Coast Guard's discretion 
and establishing a ``negligence per se'' standard in which the Coast 
Guard could be held liable if any watchstander involved in a case 
exceeded the 12-hour limit, even if that in no way affected the Coast 
Guard's actions during the case.
    (d): To meet the minimum 5 watch stander plus 1 supervisor staffing 
described in (b) above, no fewer that 170 additional personnel are 
required. There are currently 87 new billets included in the fiscal 
year 2002 budget. The balance will be requested in future budget 
requests.
    The watch standers assigned to the District and Group operations 
centers are responsible not only for coordinating our SAR missions, but 
also for managing the many missions of the Coast Guard as they take 
place within their units' geographic areas of responsibility. Maritime 
safety and security functions other than SAR, such as homeland 
security, are a major part of this mission mix. The Coast Guard's 
billet structure and operational doctrine do not provide for separate 
or additional operations center staff for SAR, homeland security, law 
enforcement, etc. A shortage of trained personnel for our operations 
center positions not only degrades the Coast Guard's ability to 
properly perform SAR missions, it adversely affects all missions. Use 
of Coast Guard reservists to augment the staff of its operations 
centers has helped it cope with this problem over recent months, but 
this is clearly not a satisfactory long-term solution.
    (e): Without additional resources, the Coast Guard will not be able 
to meet this standard without adversely impacting our operating forces. 
The Coast Guard will have to move personnel from other units, including 
small boat stations, patrol boats, cutters and marine safety offices, 
to meet this standard. If this were done, it would not be able to 
operate these facilities at the level required to satisfactorily 
execute the very missions that the operations center staffs are tasked 
with managing, including SAR, homeland security, maritime law 
enforcement, marine safety and environmental protection, maintenance of 
aids to navigation and others. And even if these re-assignments were 
made, the re-assigned personnel would have to be re-trained and re-
qualified to acquire and maintain competency as SAR planners.
    Question 8. The Crisis Management Center (CMC) of the Office of 
Emergency Transportation within DOT's Research and Special Programs 
Administration played a critical role in the wake of the September 11 
attacks. I understand that immediately following the attacks, the CMC, 
which includes representatives from all 9 transportation modes, was 
operating on a 24/7 basis and continued to do so for several weeks, 
gaining ``real time'' information and developing situational reports 
for the Secretary. Given the Office of Emergency Transportation is a 
multimodal responsibility, should it be transferred out of RSPA and 
under your watch?
    Answer: As you may know, the Crisis Management Center (or CMC) was 
established to provide information about the impact natural disasters 
and other crises have on our transportation infrastructure. Following 
the terrorist attacks of September 11, the CMC demonstrated that it is 
also an asset for managing a security-related crisis. Currently, I 
understand the Department of Transportation is engaged in an intensive 
study of how the CMC could be better utilized--in natural disaster 
emergencies as well as security-related incidents--including how it 
would serve the information needs of the TSA.
                           aviation questions
    Question 1. While issues of efficiency and convenience are not to 
be dismissed, the new Under Secretary will be under tremendous pressure 
to minimize even the smallest disruptions to airlines and passengers. 
If confirmed, what will you do to remain independent and ensure that 
security is always placed above other concerns?
    Answer: Although I recognize the importance of balancing the 
competing demands of security, mobility and economic vitality, my role 
as Under Secretary will be to champion the Security aspect in 
decisionmaking to the fullest extent. Other elements within the 
Department are responsible for advocating the case for facilitation of 
transportation, minimizing passenger disruption, etc. It will be the 
Secretary's job to strike a balance between these competing concerns. 
It is in everyone's interest to quickly restore confidence in the 
security of our airways. Through his sustained zero-tolerance approach 
to dealing with security breaches, Secretary Mineta has already sent a 
clear and decisive message about where to draw the line in ensuring the 
security of aviation. Security enhancements, however, do not always 
come at the price of greater disruption. I believe that we can find 
ways to deliver greater security without sacrificing the ease and 
freedom of movement that Americans have a right to enjoy. The airlines 
and airport operators have pledged to be our partners in this effort 
and working together I am sure we can succeed. where he will strike 
this balance.
    Question 2. Your law enforcement and security background and 
experience is extensive. Do you think that you will be able to adapt 
your work experience to the transportation sector? If confirmed, what 
steps would you take to bring yourself up to speed on the particular 
challenges associated with aviation security?
    Answer: My law enforcement background should prove extremely useful 
in addressing the problems of aviation security. This is particularly 
true of my extensive Secret Service experience. As in aviation 
security, the main focus of the Secret Service is on preventing attacks 
rather than arresting the perpetrator after an attack has occurred. If 
confirmed, my first step to familiarize myself with aviation security 
specific issues will be a series of briefings from the relevant 
intelligence and security personnel to develop a deeper understanding 
of current threats and vulnerabilities, as well as counter-measures 
currently employed. I will identify potential weaknesses or security 
gaps in the system and determine the most appropriate responses to 
close those gaps.
    Question 3. Has Congress given DOT and the new Transportation 
Security Administration the necessary resources to get the new agency 
underway? If not, what more is needed? Is there anything else Congress 
can do to assist the new Under Secretary and Transportation Security 
Administration to enhance security?
    Answer: The Aviation and Transportation Security Act mandated 
several actions that must be implemented in the immediate and near-
term. Identifying the resources necessary to get the new TSA underway 
meet these goals is a significant undertaking that is ongoing apace 
with meeting the requirements of the law. However, launching this 
organization will require more than whacking its bow with a bottle of 
champagne. The keel has been laid, and DOT is busily crafting life into 
the design. It is too early to tell whether or not we have all the 
resources necessary to fulfill the mandates, but we have enough steam 
and rudder to weigh anchor and get underway to meet the immediate tasks 
at hand.
    Question 4. The aviation security legislation that created the new 
Under Secretary position includes many mandates and imposes numerous 
deadlines related to improving security. Have you had a chance to 
review the legislation? Are there any mandates or deadlines that you 
feel will be difficult to meet?
    Answer: If confirmed, I will do everything in my power to ensure we 
meet the deadlines. By passing the ATSA and its aggressive schedule, 
both Congress and the President were clear in their common objective to 
have security as ``job one.'' Screening all checked baggage by mid 
January; building and installing explosive detection systems by January 
2003; hiring/training a workforce of over 28,000 to take over all 
screening and security responsibilities within the target dates will 
all pose enormous challenges, but I am optimistic that we will surmount 
them.
    Question 5. The January 17 deadline for the screening of all 
checked bags has been the subject of some concern, particularly by the 
airlines. Is this a realistic goal? How about the target of December 
31, 2002, for full explosive detection system equipment deployment at 
all airports?
    Answer: The Department of Transportation elements involved are 
doing everything possible to meet all of the deadlines imposed by the 
legislation. It is our intention that the airlines, with our 
assistance, make the January deadline for screening all checked bags by 
interim means and we continue to work with them toward that end. I 
fully expect that we will meet the January 17 deadline regarding 
checked baggage. I am also optimistic that we will be able to meet the 
December 31 deadline for deployment of explosive detection systems, 
although a tremendous amount of work remains to be done. Issues 
concerning the integration of explosive detection systems into existing 
as well as future airport terminal construction are also being 
addressed. Given the current production capability of existing vendors, 
the ability to meet the December 31st target for fully certified 
explosive system deployment is very optimistic. The vendors have 
indicated, however, they would be able to produce enough equipment to 
screen 100 percent of checked baggage in a much shorter timeframe than 
originally planned by ramping up their own production capabilities and 
by entering into licensing agreements with other manufacturers. The 
extent to which they will invest in ramped-up production capabilities 
or other companies will try to get new products certified will be 
influenced by the funding available for this project.
    Issues concerning the integration of explosive detection systems 
into existing as well as future airport terminal construction is also 
being addressed.
    Question 6. What is your position with regard to arming pilots in 
some capacity, whether those weapons are lethal or non-lethal?
    Answer: We don't have all the answers at this time. Our initial 
analysis has raised some very complex issues. We have requested 
comments from the industry as well as the traveling public on this 
topic. We will be working in close concert with the other FAA lines of 
business, the airlines, crewmembers, and others to come to closure on 
this initiative.
    For flights within the continental (lower 48) United States, we 
expect that a suitable landing location during an emergency will 
normally be available within 30 minutes. The flight crew's expertise 
will be needed during this period to get the aircraft on the ground as 
safely as possible. The addition of hardened cockpit doors and airline-
operating procedures, that would keep them locked, further reduces the 
need for arming crewmembers. For longer, over water and international 
flights in which there is no emergency landing location available for a 
longer period, there may well be a stronger argument for arming crew 
with lethal or non-lethal weapons. We feel that carefully selected and 
fully trained Federal Air Marshals (FAMs) can, in fact, employ non-
lethal or lethal force to resolve a situation in ways, which are safer 
for the passengers and crew. Until we have fully explored all options, 
we are unable to offer a definitive course of action.
    Question 7. Overseeing the creation of an entirely new agency 
devoted to security and law enforcement is a daunting task. I am 
unaware of such an effort in recent history. What do you believe are 
the greatest challenges?
    Answer: The greatest challenge must be hiring and training more 
than 30,000 of new employees of the required quality to serve as 
screeners and law enforcement professionals and developing systems to 
take over the Federal security requirements at over 400 airports by 
November.
    Question 8. Is there any estimate as to how large the workforce of 
the TSA will have to be to handle its aviation-related duties?
    Answer: Well More than 30,000 people will be required, but I can't 
be more specific at this time.
    Question 9. Are there any existing technologies that hold 
particular promise for improving aviation security?
    Answer: The Department is continuously reviewing new and existing 
technologies that will assist in improving civil aviation security. In 
addition to the existing certified Computed Tomography (CT) based 
Explosives Detection Systems (EDSs), prototypes are nearing completion 
for lower throughput, lower cost CT-based systems. These systems, being 
produced by three vendors, are scheduled for certification during the 
first half of 2002. With these new technologies, we will be able to 
achieve 100 percent screening of checked baggage by certified explosive 
detection systems more rapidly. The equipment will also require less 
change to the existing infrastructure for smaller airports.
    There are two systems currently in R&D that have the potential of 
being certified as EDSs: x-ray diffraction and a combination of 
automated projection x-ray and quadruple resonance.
    Ongoing research will allow the FAA TSA to continue to upgrade 
security technology.
    The Department is currently investigating additional technologies 
including explosives detection portals for screening passengers and 
trace detection in combination with various X-ray technologies.
    Question 10. Under the Aviation and Transportation Security Act, 
personnel and resources related to security at FAA and DOT will be 
transferred to the TSA. If confirmed, will you take a hard look at 
everyone you are inheriting to determine whether any individuals may 
not be suited for continuing work in transportation security?
    Answer: Just as I plan to carefully choose and screen my management 
team, I expect that they will do the same.
  

                                <greek-d>

</pre></body></html>
